U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                            Enhanced Screening of

                      BOP Correctional Officer Candidates 

                     Could Reduce Likelihood of Misconduct 


                                      September 2011 





                                        I-2011-002 

                              EXECUTIVE DIGEST 



INTRODUCTION

      The Office of the Inspector General (OIG) conducted this review to
examine whether the Federal Bureau of Prisons’ (BOP) hiring process
could more effectively identify potentially unsuitable applicants for
Correctional Officer positions. As part of our review, we evaluated
whether the BOP could use selected background characteristics as
indicators of future Correctional Officer conduct when assessing
applicants’ suitability.

       While most of the BOP’s 16,000 Correctional Officers never engage
in misconduct or commit crimes, those who do jeopardize the safety and
security of other staff and inmates and undermine public confidence in
the BOP. From fiscal year (FY) 2001 through FY 2009, an average of 113
officers per year committed misconduct resulting in at least a 1-day
suspension. Further, for each Correctional Officer terminated due to
arrest or misconduct, or who resigns under inquiry, the BOP bears the
cost of hiring and training a new Correctional Officer – approximately
$66,650 for the first year.

       The BOP’s hiring process seeks to identify qualified and suitable
Correctional Officer applicants who possess qualities that are difficult to
measure, such as integrity, decision-making ability, and judgment.
Correctional Officers must also be capable of employing appropriate
levels of force and persuasion to control inmates, and recognize and
resist inmate attempts at manipulation. Before making a conditional
offer of employment, the BOP assesses applicants’ suitability through a
series of steps that include a pre-employment interview, a panel
interview, and credit and criminal records checks. Information provided
by applicants is compared against 30 measurable thresholds in the
BOP’s Guidelines of Acceptability. If an applicant exceeds any one
Guideline threshold, the applicant is considered unsuitable and can only
be hired if the BOP grants a waiver.

      A successful applicant who accepts a conditional offer of
employment begins work in a BOP prison for a 12-month probationary
period. As soon as the conditional offer of employment is made, the BOP
requests that the Office of Personnel Management (OPM) conduct a
background investigation on the new employee. The BOP attempts to
adjudicate the results of that background investigation before the
Correctional Officer completes the 12-month probationary period and

U.S. Department of Justice                                                 i
Office of the Inspector General
Evaluation and Inspections Division
becomes a permanent employee. If the results of the background
investigation are negative or the BOP discovers a Correctional Officer has
been dishonest in the information he or she provided to the BOP prior to
being hired, the BOP can terminate the officer. Terminating a
probationary employee is easier than terminating a permanent
employee.1

      The OIG’s review employed a multi-disciplined approach that
included evaluating hiring policies, interviews, site visits, and statistical
procedures, including classification tree and logistic regression analyses,
which find relationships among variables and provide more accurate
predictions. We focused on Correctional Officers’ conduct in their first
2 years of service with the BOP, but we analyzed misconduct and arrest
data for FY 2001 through FY 2010 to identify trends involving newly
hired Correctional Officers. We analyzed background information for
approximately 12 percent of the 3,731 Correctional Officers hired by the
BOP during FY 2007 and FY 2008 to identify any characteristics that
correlated to future conduct.

RESULTS OF THE REVIEW

Misconduct allegations and arrests of BOP Correctional Officers
have increased in the last decade.

       The number of misconduct investigations of BOP Correctional
Officers doubled from FY 2001 to FY 2010, rising from 2,299 to 4,603.
Correctional Officers were investigated disproportionately to their
representation in the BOP workforce throughout the decade, in that
while they accounted for approximately 40 percent of BOP staff, they
were the subject of 53 percent of the misconduct allegations in FY 2001
and 63 percent of the allegations in FY 2010. Of the 32,455 misconduct
allegations made against Correctional Officers between FY 2001 and
FY 2009 for which there were final resolutions, 16,717 (52 percent) were
substantiated.



       1  Probationary employees terminated for pre-employment reasons receive
10 days’ advance written notice and an opportunity to refute the reasons for
termination. Probationary employees also receive limited appeal rights to the Merit
Systems Protection Board (MSPB). In contrast, permanent employees terminated for
pre-employment reasons receive 30 days’ advance written notice with an opportunity to
refute the reasons for termination. Permanent employees also receive full, union-
negotiated appeal rights to the MSPB or the option of filing a formal complaint with the
Equal Employment Opportunity Commission.


U.S. Department of Justice                                                             ii
Office of the Inspector General
Evaluation and Inspections Division
       Arrests of Correctional Officers as a result of substantiated
allegations of criminal conduct have also increased. From FY 2001
through FY 2010, a total of 272 Correctional Officers were arrested,
rising 89 percent from 18 in FY 2001 to 34 in FY 2010. Correctional
Officer staffing levels at the BOP during the same time period rose only
24 percent.

Misconduct allegations and arrests are most common in
Correctional Officers’ early years.

       Over half (58 percent) of the Correctional Officers who had
substantiated allegations of misconduct, and who received discipline of
at least a 1-day suspension between FY 2001 and FY 2009, were
disciplined for conduct that occurred within their first 2 years of service
with the BOP. We identified 1,020 Correctional Officers hired during
that time period who had had substantiated misconduct allegations,
such as physical abuse of an inmate or misuse of government
computers, resulting in at least a 1-day suspension. Of those 1,020
Correctional Officers, 587 were disciplined for behavior that occurred
within 2 years of their start dates.

      When we analyzed arrest data for FY 2001 through FY 2010, we
found that of the 272 Correctional Officers arrested, over one-quarter
(27 percent) were arrested for behavior that took place during their first
2 years of service. Types of behavior for which arrests were made
included introduction of an illegal substance into a prison and having a
sexual relationship with an inmate.

Classification tree, conditional inference tree, and logistic
regression analyses show combinations of applicants’ background
characteristics are predictive of bad behavior, but the BOP’s hiring
process does not have a systematic method of evaluating
combinations.

      Extensive classification tree, conditional inference tree, and logistic
regression analyses the OIG conducted found that combinations of
certain applicant characteristics have strong relationships with an
increased likelihood of substantiated misconduct resulting in at least a
1-day suspension during the first 2 years after a Correctional Officer
begins work.2 Of the 175 Correctional Officer characteristics we
analyzed, 2 predicted a greater likelihood of good behavior and did so

       2   See Appendix III for a detailed discussion of our methodology and analysis.


U.S. Department of Justice                                                               iii
Office of the Inspector General
Evaluation and Inspections Division
independently of other characteristics: educational level and duration of
the longest civilian job previously held. While we are not making any
recommendations related to education requirements, we believe the BOP
should consider the predictive relationship established by our analysis
between good conduct and officers with at least some college-level
education when determining goals for the desired makeup of the BOP’s
Correctional Officer workforce.

       Seven other characteristics predicted a higher likelihood that
Correctional Officers would commit substantiated misconduct resulting
in at least a 1-day suspension within the first 2 years of being hired if the
characteristics appeared in particular combinations. In the body and
appendices of this report, we discuss the combinations uncovered by our
tree analysis and logistic regression analysis. It is important to note that
the specific characteristics that make up the combinations matter less
than the fact that our analyses established that combinations matter.
Indeed, any combinations the BOP adopts would likely not be identical to
ours. Instead, if the BOP assesses the value of using combinations in its
screening practices and decides to implement a composite scoring
system, the system would include the BOP’s own analysis and judgment
and would be used in conjunction with or incorporated into the
Guidelines of Acceptability.

      The BOP’s current system does not include a mechanism for
systematically considering combinations of characteristics and assigning
weights to derive a risk factor when deciding whether to hire or make a
Correctional Officer a permanent member of the BOP’s staff. If the BOP
were to systematically evaluate individuals based on combinations of
factors in addition to the single thresholds it now relies on, it could add a
useful tool to its screening practices.

Potential Benefits of Composite Scoring

       To provide a tangible estimate of the benefits of a composite
scoring mechanism, we performed an additional analysis to find how
many of the Correctional Officers in our sample would have been
identified by the three predictive combinations that surfaced in our
analyses. This was an analysis based on the findings of the classification
tree, conditional inference tree, and logistic regression analyses, but
performed separately. We found that, based on our sample, the tangible
benefits of the BOP using composite scoring to assess Correctional
Officer applicants could be substantial. Specifically, the 3 predictive
combinations would have identified 67 out of 171 Correctional Officers in
our sample who committed substantiated misconduct resulting in at

U.S. Department of Justice                                                 iv
Office of the Inspector General
Evaluation and Inspections Division
least a 1-day suspension. In contrast, the 3 predictive combinations
would have identified only 32 out of 287 Correctional Officers who did
not commit misconduct.3 Thus, the combinations would have been a
useful tool in assessing Correctional Officer applicants in our sample
and, consequently, enhancing the safety and security of the prisons in
which the 67 identified Correctional Officers were hired.4

      Our additional analysis also found that the BOP could realize cost
savings by using composite scoring to identify Correctional Officers who
are more likely than others to commit misconduct. Correctional Officers
that are terminated due to misconduct or resign during misconduct
inquiries force the BOP to expend resources hiring and training
replacement officers. Taken together, the 3 combinations detailed above
would have identified 41 Correctional Officers in our sample who were
terminated due to misconduct or resigned during misconduct inquiries.
Had the BOP not hired those officers, it would have represented a cost
savings to the BOP for items such as training, overtime paid to staff
covering shifts of the departed Correctional Officers, additional hours of
administrative work by BOP support staff, OPM background
investigations, equipment and uniforms, and drug screening.

The BOP reduced the possibility of permanently hiring unsuitable
Correctional Officers by shortening the amount of time taken to
adjudicate background investigations.

      Ensuring the timely adjudication of background investigations is
essential because if derogatory information is uncovered during the
employees’ probationary period, it is easier for the BOP to terminate
them. Once employees complete their probationary periods, they have
the full bargaining unit appeal rights of permanent employees. We found
the percentage of Correctional Officer background investigations
completed after the 12-month probationary year ended decreased from
43 percent and 44 percent in FY 2007 and FY 2008, respectively, to
14 percent in FY 2009 and 6 percent in FY 2010.


       3 Any screening factors, including those currently found in the BOP’s
Guidelines of Acceptability, eliminate some applicants who will never commit
misconduct along with applicants who will.

       4 Because the population of Correctional Officers we drew our sample from did
not include the applicants who had already been screened out by the BOP’s Guidelines
of Acceptability, it was not possible to estimate the additional number of applicants
from that population who would have met the criteria of one or more of the
combinations.


U.S. Department of Justice                                                              v
Office of the Inspector General
Evaluation and Inspections Division
       The BOP official in charge of background investigation adjudication
attributed the decrease to three primary reasons. First, OPM decreased
the amount of time it took to conduct investigations. Second, the BOP
added 6 positions to the unit responsible for adjudications, bringing the
total number of employees to 32. Third, that unit assigns a specially
designated team to the adjudications of employees who have completed
10 months of their 12-month probationary periods in an effort to finalize
the adjudications before the probationary periods end.

CONCLUSION AND RECOMMENDATION

       The BOP’s improvement in the timely adjudication of background
investigations has put it in a stronger position to remove unsuitable
Correctional Officers before they become permanent employees. To
further reduce the likelihood of Correctional Officer misconduct and
arrests, particularly within the first 2 years of being hired, the BOP could
consider additional ways of assessing applicants. Currently, the BOP’s
system does not include a mechanism for assigning weights and
systematically considering combinations of characteristics to derive a
risk factor when deciding whether to make a newly hired Correctional
Officer a permanent member of the staff. The proof of concept
demonstrated by our statistical procedures and logistic regression
analysis found that combinations of applicants’ characteristics are
predictive of future conduct. We believe the BOP should assess the value
of establishing a composite scoring system for evaluating Correctional
Officer applicant suitability.

       We recommend that the BOP:

       1. Consider developing a composite scoring mechanism for
          assessing the suitability of Correctional Officer applicants.




U.S. Department of Justice                                                vi
Office of the Inspector General
Evaluation and Inspections Division
                               TABLE OF CONTENTS 




BACKGROUND ................................................................................ 1


SCOPE AND METHODOLOGY OF THE OIG REVIEW ......................... 9


RESULTS OF THE REVIEW............................................................ 11

  Misconduct allegations and arrests of BOP Correctional Officers 

  have increased in the last decade. .................................................... 11 

  Misconduct allegations and arrests are most common in 

  Correctional Officers’ early years. ..................................................... 15 

  Classification tree and logistic regression analyses show 

  combinations of applicants’ background characteristics are 

  predictive of bad behavior, but the BOP’s hiring process does not 

  have a systematic method of evaluating combinations. ..................... 18 

  The BOP reduced the possibility of permanently hiring unsuitable 

  Correctional Officers by shortening the amount of time taken to 

  adjudicate background investigations............................................... 26 


CONCLUSIONS AND RECOMMENDATION ..................................... 28


APPENDIX I: OIG METHODOLOGY FOR THIS REVIEW.................. 30


APPENDIX II: VARIABLES COLLECTED DURING FILE REVIEW ..... 36


APPENDIX III: REGRESSION ANALYSIS METHODOLOGY .............. 43


APPENDIX IV: THE BOP’S HIRING AND SELECTION PROCESS ..... 59


APPENDIX V: STATE DEPARTMENT OF CORRECTIONS 

QUESTIONNAIRE ......................................................................... 65


APPENDIX VI: THE BOP’s RESPONSE TO DRAFT REPORT............ 68


APPENDIX VII: OIG ANALYSIS OF THE BOP’s RESPONSE ............ 70





U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                 BACKGROUND 



      The Office of the Inspector General (OIG) conducted this review to
examine whether the Federal Bureau of Prisons’ (BOP) hiring process can
be made more effective in identifying potentially unsuitable applicants for
Correctional Officer positions. We also evaluated whether the BOP could
use selected background characteristics of BOP Correctional Officers as
indicators of future conduct when assessing applicants’ suitability.
Correctional Officers represent the largest category of BOP employees
nationwide. These officers help provide custody and control over a
federal inmate population that numbered more than 216,000 as of July
2011 and is growing each year. At the end of fiscal year (FY) 2010, the
16,009 Correctional Officers made up 42 percent of the 38,039 full-time
employees.

      During FY 2010, the BOP received 30,052 applications for the
Correctional Officer position and hired 1,939. The BOP’s hiring process
seeks to identify qualified and suitable Correctional Officer applicants
who possess qualities that are difficult to measure, such as integrity,
decision-making ability, and judgment. Correctional Officers must also
be capable of employing appropriate levels of force and persuasion to
control inmates, and recognize and resist inmate attempts at
manipulation.

      While most BOP Correctional Officers never engage in misconduct
or commit crimes, those who do jeopardize the safety and security of
other staff and inmates, and undermine public confidence in the BOP.
From FY 2001 through FY 2009, an average of 113 officers per year
committed misconduct resulting in at least a 1-day suspension. Further,
for each Correctional Officer terminated due to arrest or misconduct, or
who resigns under inquiry, the BOP bears the cost of hiring and training
a new Correctional Officer – approximately $66,650 for the first year.

Misconduct and Crimes

       The BOP defines the on-duty and off-duty conduct for which
employees can be disciplined, ranging from severe behavior, such as a
life-threatening physical assault on an inmate, to minor behavior, such
as using profanity while on duty. If an employee is suspected of violating
these standards of conduct or federal or state law, a complaint of
employee misconduct is filed with the BOP’s Office of Internal Affairs or



U.S. Department of Justice                                                 1
Office of the Inspector General
Evaluation and Inspections Division
the OIG.5 All allegations of misconduct within the BOP are reported to
the OIG. The OIG independently investigates allegations of serious
misconduct (criminal or otherwise), fraud, or sensitive matters. When an
OIG investigation has identified violations of law, the case is presented to
the U.S. Attorney’s Office for prosecutorial consideration. If the matter is
declined for prosecution, the final investigative report is provided to the
BOP for appropriate administrative action.

       Allegations of BOP employee misconduct that are not investigated
by the OIG are investigated by local BOP investigators at the prisons,
with oversight from staff in the Office of Internal Affairs. After allegations
have been investigated and the charges validated, an official of the prison
reviews the investigative report and proposes an administrative action to
impose. A second prison official then reviews the proposal and makes
the final determination of administrative action ranging from an oral
reprimand up to and including termination.

Hiring Process

       Although staff at the BOP’s 116 individual prisons handle key
steps in the hiring process, the Consolidated Employee Services Center
in Grand Prairie, Texas, centralizes most aspects of the hiring process
and provides guidance to the prisons on hiring procedures. The Center
verifies that each applicant has met the BOP’s required minimum
qualifications. Below, we briefly discuss the BOP’s specific process for
selecting and hiring Correctional Officers. Figure 1 at the end of this
Background section depicts the basic process new Correctional Officers
go through. Appendix IV provides a more detailed discussion.

From Application to Interview

      The BOP hires Correctional Officers exclusively at the entry-level
pay grades of GL-5 and GL-6.6 An applicant’s previous work experience
and education determine at which grade the individual will start.
Applicants initiate the hiring process by completing the BOP’s online
application for the Correctional Officer position through the

       5  The OIG’s Investigations Division has jurisdiction to investigate all allegations
of crimes or misconduct made against Department of Justice employees, including
those of the BOP.

       6 Correctional Officers, like many federal law enforcement employees, are on the
GL pay scale. The pay range for GL-5 and GL-6 Correctional Officers is $38,619 to
$51,193 per year.


U.S. Department of Justice                                                                2
Office of the Inspector General
Evaluation and Inspections Division
USAJOBS.gov job portal. Application questions cover topics that include
past work history; education; veterans’ preference; and knowledge, skills,
and abilities. The BOP’s automated system assigns a score according to
the applicant’s answers. At the time of our analysis, applicants had to
score at least 70 out of a possible 110 points to be considered further.7
The Consolidated Employee Services Center sends lists of qualified
applicants to the prisons advertising Correctional Officer positions.

       At the prisons, Human Resources Managers conduct credit checks
through a national credit reporting company and criminal record checks
through the Federal Bureau of Investigation’s (FBI) National Crime
Information Center (NCIC) before the applicants undergo pre-employment
interviews.8 A Human Resources Manager reviews the results of the
credit check prior to the interview.

      The pre-employment interview uses a battery of standardized
questions to collect information about an applicant’s past and current
behavior. A Human Resources Manager or designated alternate
conducts the interview and records the applicant’s responses on a form.
The applicant is informed at the beginning of the interview that lying may
result in termination or being barred from future federal employment. At
the conclusion of the interview, the applicant is asked to sign a
statement attesting that their interview responses are accurate and true.

       The BOP uses the pre-employment interview information in three
ways. First, it compares the information provided by the applicant with
30 measureable thresholds in the BOP’s Guidelines of Acceptability to
determine whether an applicant is suitable for a Correctional Officer
position (discussed below). If applicants exceed any one Guideline
threshold, they are considered unsuitable and can only be hired if they
receive waivers. Second, it compares the information with applicants’
responses to the SF-85PS security form, which asks about drug and
alcohol use as well as medical history, and is completed after the
applicant receives a conditional offer of employment. Third, it compares

       7  In response to the May 11, 2010, Presidential Memorandum, Improving the
Federal Recruitment and Hiring Process, the BOP has since changed to a points-based
categorical rating system of Best Qualified (90 to 100 points), Highly Qualified (80 to 90
points), and Qualified (70 to 80 points).

       8   The NCIC is an electronic clearinghouse of crime data that can be accessed by
virtually every criminal justice agency nationwide. A records check searches NCIC files
that include Wanted Persons, the National Sex Offender Registry, Protection Orders,
Known or Appropriately Suspected Terrorists, and Immigration Violators. NCIC
webpage, http://www.fbi.gov/about-us/cjis/ncic/ncic (accessed June 7, 2011).


U.S. Department of Justice                                                               3
Office of the Inspector General
Evaluation and Inspections Division
the information with the findings of a background investigation
conducted later in the process by the Office of Personnel Management
(OPM) to determine whether the applicant has been truthful (discussed
later in this section).

       The BOP’s Guidelines of Acceptability cover employment history;
military history; financial history; dishonest conduct, excessive use of
force, and integrity; and criminal and driving history. Examples of the
types of thresholds the Guidelines establish include:

       	 the number of times fired from employment for cause or
          disciplined within a set number of years and
       	 the amount of past due debt where satisfactory arrangements
          for a payment schedule have not been made.9

       An applicant found suitable as a result of the pre-employment
interview is advanced to the panel interview.

From Interview to Conditional Offer

       The panel interview evaluates an applicant’s qualifications,
knowledge, and skills necessary for the position. In addition, the panel
considers intangible factors such as character, integrity, decision making
ability, and judgment in assessing the suitability of applicants.
Interviewers also may follow up on issues covered in the pre-employment
interview.

      Panel interviews are conducted by three prison staff members
trained to conduct the interviews: a human resources employee, a
Correctional Services supervisor or manager (such as a Lieutenant or a
Captain), and a psychologist or similarly qualified staff member. Before
an interview begins, panel members review all available applicant
information.

      Panel members note both the strengths and weaknesses of an
applicant’s answers on a standardized rating form. They also rate the
candidate in 10 job-related areas using a rating scale of “Excellent,”
“Acceptable,” or “Unacceptable.” If a panel member rates an applicant
“Unacceptable” in any area, the panel member must document the

       9  The BOP considers the specific thresholds to be sensitive and restricts access
to their contents so that potential applicants cannot circumvent the thresholds.
Consequently, in this public report, we do not disclose the specific thresholds.


U.S. Department of Justice                                                             4
Office of the Inspector General
Evaluation and Inspections Division
reason. After the interview, the three panel members’ ratings are
combined, and the panel determines whether the applicant is acceptable.
If the panel members disagree, the Human Resources Manager reaches a
decision according to the ratings of the majority of the panel.

      Applicants who reach this point must undergo a National Agency
Check (NAC), which consists of searches of national security databases
and fingerprint files. If some results of the NAC are delayed, the BOP
may make its hiring decision based on the fingerprint check alone.
Following successful NAC or fingerprint screening, applicants may
receive a conditional offer of employment and start working on a
probationary status. New hires remain on probationary status for a
period of 1 year after their entry-on-duty date.

From Conditional Offer to Permanent Employment

      A conditional offer of employment allows Correctional Officers to
begin work only if they receive satisfactory results from a physical
examination, urinalysis for detection of illegal drugs, and any self-
reported mental health history.

       Every newly hired Correctional Officer must also undergo a
background investigation. The background investigation process is
initiated after the BOP makes a conditional offer of employment that is
accepted by the applicant. The investigation is conducted by OPM on
behalf of the BOP and covers facets of an individual’s past that may
provide insight into the individual’s reliability, trustworthiness, loyalty to
the United States, and conduct and character.10 To initiate the
investigation process, newly hired Correctional Officers are required to
submit details of their background in the Questionnaire for Public Trust
Positions, including past home addresses, family information, and travel
history.

      While OPM begins the investigation process as soon as a newly
hired Correctional Officer has been given a date to report to work, the

       10  The BOP used limited background investigations for Correctional Officers
during the time period of our review, but has since switched to full background
investigations. Limited background investigations include written inquiries covering the
most recent 3 years, record searches covering 5 years, and a credit search covering
7 years. Results of the credit search are provided to the requesting agency only if OPM
identifies a potential credit problem. Full background investigations extend the written
inquiries to cover 5 years. Additionally, OPM provides the requesting agency with the
results of the credit search whether there is a potential credit problem or not.


U.S. Department of Justice                                                            5
Office of the Inspector General
Evaluation and Inspections Division
investigation is completed after the employee has begun work. It may
take several months to over a year to complete an investigation.11 When
OPM completes a background investigation, it assigns a case closing
code. A case closing code is determined based on the presence or
absence of and severity of potential character and conduct concerns
within an individual’s background investigation, weighted in light of the
passage of time.

      Although applicants generally are hired before their background
investigations are conducted, they will be asked to explain in writing any
discrepancies found between their pre-employment interview responses
and what was discovered during the background investigations. An
employee may be terminated if found to have been dishonest during the
application process.12

Background Investigation Adjudication

      Once OPM completes the background investigation, the BOP’s
Security and Background Investigation Section (SBIS) adjudicates any
discrepancies that have arisen in the individual’s background
information. Although OPM raises any derogatory issues it has
discovered when performing an investigation, SBIS conducts its own
evaluation of the investigation’s results and may or may not conclude
that an issue raised by OPM is of concern. Similarly, SBIS may deem an
issue not raised by OPM as a negative factor.

       If SBIS finds a discrepancy between information found in the
background investigation and what the applicant told the BOP during
the pre-employment interview, and such information would have barred
the person from being hired under the Guidelines of Acceptability, it will,
in writing, formally ask the employee questions relating to the topic.
These questions are known as interrogatories. Answers to these
interrogatories determine whether a Correctional Officer will be retained
or terminated. In rare cases, the Correctional Officer’s Warden may


       11 In FY 2009, the most recent year for which data is available, OPM took an
average of 3.5 months to complete Correctional Officer background investigations.

       12  Until 2006, prison staff checked applicants’ references with prior employers,
extending back 5 years, to verify the employment information and work history
applicants provided during their pre-employment interviews. The BOP discontinued the
practice in February 2006 because OPM verifies employment information during its
background investigation process. We are assessing the reference checking practices of
Department components, including the BOP, in a separate review.


U.S. Department of Justice                                                            6
Office of the Inspector General
Evaluation and Inspections Division
request a waiver of the Guidelines of Acceptability. Such a waiver must
be supported by the BOP Regional Director.

       In its section on “Objecting to an Eligible,” OPM’s Delegated
Examining Operations Handbook states that various factors, including
intangible ones such as personal characteristics, can be considered when
determining suitability of applicants. The Handbook states that a
selecting official may object to an applicant for reasons such as
education, experience, false statements, past performance ratings,
inability to obtain a security clearance, personal characteristics, habitual
use of alcohol, illegal use of narcotics, or for medical reasons. The
selecting official must ensure that the reason for the objection is proper
and adequate, and does not violate merit system principles.13




       13OPM, Delegated Examining Operations Handbook: A Guide for Federal Agency
Examining Offices (May 2007), 159-161.


U.S. Department of Justice                                                     7
Office of the Inspector General
Evaluation and Inspections Division
   Figure 1: Fundamental Steps of the Correctional Officer Hiring 

          Process through the End of the Probationary Year 





U.S. Department of Justice                                            8
Office of the Inspector General
Evaluation and Inspections Division
             SCOPE AND METHODOLOGY OF THE OIG REVIEW 



Scope

       We reviewed the BOP’s process for hiring Correctional Officers at
its prisons nationwide. We examined how the BOP assesses the
qualifications and suitability of applicants, beginning with the
application process and ending with the BOP’s final adjudication of
background investigations. We did not review the hiring processes at the
privately managed or community-based facilities and local jails the BOP
uses under contract to house approximately 18 percent of its inmates.14

       We analyzed BOP Correctional Officer misconduct and arrest data
for the 10-year period from FY 2001 through FY 2010 to identify trends
involving newly hired Correctional Officers. We compared those trends
with misconduct and arrest trends for all BOP Correctional Officers and
BOP staff in general. We also analyzed data provided by the BOP’s
Security and Background Investigation Section to evaluate whether, from
FY 2007 through FY 2010, the BOP adjudicated Correctional Officer
background investigations within the officers’ 12-month probationary
periods.

       We analyzed background information for approximately 12 percent
of the 3,731 Correctional Officers that were hired by the BOP during
FY 2007 and FY 2008 to identify any characteristics that predicted future
conduct.15 Our analysis included all BOP Correctional Officers who had
committed substantiated misconduct and received discipline of at least a
1-day suspension or who had been arrested during their first 2 years
after being hired. For comparison purposes, we analyzed the
background information of a sample of Correctional Officers hired in that
time period who had good conduct records for the first 2 years of their
service with the BOP.16

       We focused the scope of our review on Correctional Officer conduct
in their first 2 years of service with the BOP. For Correctional Officers

       14   BOP website, http://www.bop.gov/about/index.jsp (accessed June 8, 2011).

       15We extracted 175 different elements of information from each of the 458
background investigation files (a total of approximately 78,300 data elements).

       16  We defined “good conduct” as not having been the subject of any misconduct
allegation or arrests in their first 2 years of service with the BOP.


U.S. Department of Justice                                                          9
Office of the Inspector General
Evaluation and Inspections Division
hired in FY 2007 and FY 2008, we were able to analyze their conduct
records for a full 2 years after the entry-on-duty date, through
September 30, 2010. We could not analyze employee records for
Correctional Officers hired before FY 2007 because the BOP maintains
certain records for only 2 years.

Methodology

      The review employed a multi-disciplined approach consisting of
evaluation of hiring policies, interviews, site visits, and statistical
procedures including classification tree and logistic regression
analyses.17 A detailed description of our methodology and regression
analysis is in Appendices I, II, and III.




       17  Classification tree and logistic regression analysis are statistical techniques
used to find relationships between variables for the purpose of predicting values.


U.S. Department of Justice                                                               10
Office of the Inspector General
Evaluation and Inspections Division
                           RESULTS OF THE REVIEW 



       Misconduct allegations and arrests of BOP Correctional
       Officers have increased in the last decade, with both
       being most likely to occur during the early years of
       Correctional Officers’ service. Our classification tree
       and    logistic  regression    analyses   showed    that
       combinations    of    characteristics   in   applicants’
       backgrounds are predictive of bad behavior, but the
       BOP’s hiring process does not have a systematic method
       of evaluating combinations. Finally, we found that the
       BOP has reduced the possibility of permanently hiring
       unsuitable Correctional Officers by shortening the
       amount of time taken to adjudicate background
       investigations.


Misconduct allegations and arrests of BOP Correctional Officers
have increased in the last decade.

Misconduct Allegations

       A total of 39,555 misconduct allegations against Correctional
Officers were reported to the BOP’s Office of Internal Affairs between
FY 2001 and FY 2010. The number of allegations reported doubled from
FY 2001 to FY 2010, with most of the increase coming during the first
half of the decade. The BOP’s Office of Internal Affairs opened
investigations into 2,299 misconduct allegations against Correctional
Officers in FY 2001, and 4,603 allegations in FY 2010.

       Allegations against Correctional Officers rose faster than the
increase in the number of Correctional Officers. The number of
allegations made against Correctional Officers increased 107 percent
from FY 2001 through FY 2007, even though the number of Correctional
Officers employed by the BOP increased only 17 percent during this
time.18 Since FY 2007, when allegations against Correctional Officers

       18  An FY 2003 BOP policy change may have contributed to the relatively higher
number of misconduct allegations reported in FY 2003 through FY 2010 as compared
with FY 2001 and FY 2002. Specifically, in FY 2003 BOP prisons were instructed to
report all allegations of misconduct to the BOP’s Central Office. The policy in place in
FY 2001 and FY 2002 did not mandate the reporting of all allegations and, according to
the BOP, not all allegations were reported.


U.S. Department of Justice                                                           11
Office of the Inspector General
Evaluation and Inspections Division
were at their highest, the BOP has seen a decline of 3.5 percent, from
4,770 allegations in FY 2007 to 4,603 in FY 2010, even as the number of
Correctional Officers employed by the BOP increased 6 percent (see
Figure 2).19 Despite the decline in misconduct allegations against
Correctional Officers in FY 2008 and 2009, both the number of
allegations and the rate of allegations per 1,000 Correctional Officers
were much higher in FY 2010 than they had been in FY 2001.

                Figure 2: Misconduct Allegations Made Against 

                Correctional Officers, FY 2001 through FY 2010 

   6,000 

   5,000                                                    4,660    4,770    4,698             4,603 
                                                                                       4,524 
                                                   4,205 
   4,000                                  3,506 
                                 3,433 
                        2,857 
   3,000 
               2,299 
   2,000 

   1,000 

      ‐
               2001     2002     2003     2004     2005     2006     2007     2008     2009     2010
                                                    Fiscal Year


          Source: BOP Office of Internal Affairs data.



       Correctional Officers were investigated for misconduct
disproportionately to their representation in the BOP workforce
throughout the decade. Correctional Officers accounted for
approximately 40 percent of BOP staff, but were the subject of 53 percent
of the misconduct allegations made in FY 2001 and 63 percent of the
allegations made in FY 2010 (see Table 1).




          The number of allegations made per 1,000 Correctional Officers dropped
          19

9 percent over this time, from 315 allegations per 1,000 in FY 2007 to 288 allegations
per 1,000 in FY 2010.


U.S. Department of Justice                                                                             12
Office of the Inspector General
Evaluation and Inspections Division
   Table 1: Percentage of BOP Staff Who Are Correctional Officers 

    Compared with Percentage of Misconduct Allegations Against 

           Correctional Officers, FY 2001 through FY 2010 

                                                       Percentage of
                               Percentage of            Misconduct
                               BOP Staff Who         Allegations Made
               Fiscal Year       Are COs                Against COs
               2001                   38%                     53%
               2002                   38%                     56%
               2003                   39%                     56%
               2004                   39%                     56%
               2005                   41%                     58%
               2006                   41%                     58%
               2007                   42%                     59%
               2008                   42%                     62%
               2009                   42%                     62%
               2010                   42%                     63%
               Average                40%                     58%

             Source: BOP Office of Internal Affairs data.

       Of the 32,455 misconduct allegations made against Correctional
Officers between FY 2001 and FY 2009 for which there was a final
resolution, 16,717 (52 percent) were substantiated.20 While this
percentage held relatively stable for allegations reported between
FY 2001 and FY 2008, the percentage of allegations made in FY 2009
that were substantiated dropped to 43 percent. Table 2 shows the
percentage of allegations made each year that were substantiated.




       20  We could not determine what percentage of misconduct allegations made in
FY 2010 were substantiated because at the time the BOP provided us the data,
investigations into 67 percent of the misconduct allegations made in FY 2010 were still
open.


U.S. Department of Justice                                                           13
Office of the Inspector General
Evaluation and Inspections Division
            Table 2: Number and Percentage of Allegations 

                  Made Against Correctional Officers 

          that Were Substantiated, FY 2001 through FY 2009 

                          Number of
                          Allegations       Number of         Percentage of
                          with Final        Allegations        Allegations
          Fiscal Year     Resolution       Substantiated      Substantiated
          2001               2,273               1,188              52%
          2002               2,823               1,475              52%
          2003               3,384               1,827              54%
          2004               3,470               1,868              54%
          2005               4,162               2,180              52%
          2006               4,544               2,448              54%
          2007               4,499               2,295              51%
          2008               4,022               2,044              51%
          2009               3,278               1,392              43%
          Overall          32,455              16,717               52%

          Note: The number of allegations with a final resolution is less
          than the total number of allegations made each year because
          some allegations did not have a final resolution recorded in the
          BOP’s database because they were still open. We excluded
          these allegations before calculating the percentage of allegations
          substantiated.
          Source: BOP Office of Internal Affairs data.

Arrests

      Arrests of Correctional Officers as a result of substantiated
allegations involving criminal activity have also increased since FY 2001.
From FY 2001 through FY 2010, the OIG Investigations Division reported
that a total of 272 Correctional Officers were arrested. During this
period, Correctional Officer arrests rose from 18 in FY 2001 to 34 in
FY 2010, an increase of 89 percent (see Figure 3). There was only a 24-
percent rise in Correctional Officer staffing levels at the BOP during the
same time period.

       While there is no single explanation for the increase in Correctional
Officer arrests from FY 2001 to FY 2010, during the course of our review
BOP officials suggested two factors likely to have contributed to the rise.
First, in 2004 the BOP implemented a near-total ban on lighted tobacco
products in its prisons, which had the effect of turning cigarettes into

U.S. Department of Justice                                                     14
Office of the Inspector General
Evaluation and Inspections Division
contraband. Second, recent years have seen stricter enforcement of
prohibitions against inappropriate sexual relationships in prison due to
heightened awareness and federal legislation.21

                 Figure 3: Total BOP Correctional Officer Arrests, 

                            FY 2001 through FY 2010 

  50
                                                44
  45
  40
                                                              33            34
  35                                                   31
                           29
  30                                                                 26
  25                              22
                                         20
  20        18
                    15
  15
  10
   5
   0
        2001       2002   2003   2004   2005   2006   2007   2008   2009   2010

Source: OIG Investigations Division data.



Misconduct allegations and arrests are most common in
Correctional Officers’ early years.

Misconduct

       Over half (58 percent) of the Correctional Officers who had
substantiated allegations of misconduct, and who received discipline of
at least a 1-day suspension between FY 2001 and FY 2009, were
disciplined for conduct that occurred within their first 2 years of service
with the BOP. We analyzed data provided by the BOP’s Office of Internal

       21  The Prison Rape Elimination Act of 2003 called on the Department of Justice
to make the prevention of prison rape a top priority; the Violence Against Women and
Department of Justice Reauthorization Act of 2005 increased the penalty for certain
sexual abuse crimes and made those crimes felonies instead of misdemeanors; and the
Adam Walsh Child Safety and Protection Act of 2006 further increased the maximum
penalties for certain sexual abuse crimes and requires federal employees who are found
guilty of any sexual abuse offense involving a federal prisoner to register as sex
offenders.


U.S. Department of Justice                                                         15
Office of the Inspector General
Evaluation and Inspections Division
Affairs to calculate the amount of time from an employee’s first day of
employment to the date that the employee became the subject of a
misconduct investigation. We identified 1,020 Correctional Officers that
were hired and that had substantiated misconduct allegations that
resulted in serious discipline.22 Of the 1,020 Correctional Officers that
received serious discipline, 587 were disciplined for behavior that
occurred within 2 years of their start date.23

Arrests

       When we analyzed arrest data for FY 2001 through FY 2010, we
found that, of the 272 Correctional Officers arrested between FY 2001
and FY 2010, over one-quarter (27 percent) were arrested for behavior
that took place during their first 2 years of service (see Figure 4).




       22  We identified 5,345 substantiated misconduct allegations against
Correctional Officers hired between FY 2001 and FY 2009, and counted the number of
unique Social Security Numbers associated with each misconduct record to determine
the number of Correctional Officers involved in those allegations. We defined “serious
discipline” as suspension, reassignment, demotion, resignation under inquiry,
retirement under inquiry, termination, or a combination of these penalties.

       23 The severity of punishment administered to BOP Correctional Officers for
work-related misconduct, as federal workers, is in part determined by the employee’s
past work record, including length of service, performance on the job, ability to get
along with others, and dependability.


U.S. Department of Justice                                                              16
Office of the Inspector General
Evaluation and Inspections Division
Figure 4: Year of BOP Service at Time of Incident Leading to Arrest, 

                    FY 2001 through FY 2010 


                                                   45
  Number of COs  Misconduct Leading to an Arrest

                                                             40
                                                   40

                                                   35   33
                                                                  29 28
                                                   30

                                                   25                     23        22
                                                   20

                                                   15                          13        13 14 14
                                                                                                    10
                                                   10                                                            8
                                                                                                         4   4       4   4   3       3
                                                    5                                                                                    2       1
                                                                                                                                 0           0
                                                    0
                                                        1    2    3   4   5    6    7    8   9 10 11 12 13 14 15 16 17 18 19 20 21 22
                                                                                             Years of BOP Service

Source: OIG Investigations Division.

      Because of the extent to which Correctional Officers committed
misconduct during their first 2 years, we examined the characteristics of
those officers to determine whether characteristics or patterns
discernable at hiring could predict future misconduct.




U.S. Department of Justice                                                                                                                           17
Office of the Inspector General
Evaluation and Inspections Division
Classification tree and logistic regression analyses show
combinations of applicants’ background characteristics are
predictive of bad behavior, but the BOP’s hiring process does not
have a systematic method of evaluating combinations.

       Extensive classification tree, conditional inference tree, and logistic
regression analyses conducted by the OIG found that combinations of
certain applicant characteristics have strong relationships with an
increased likelihood of substantiated misconduct resulting in at least a
1-day suspension during the first 2 years after a Correctional Officer
begins work. To conduct the analyses, we identified all 171 of the 3,731
Correctional Officers hired in FY 2007 and FY 2008 who had
substantiated misconduct within 2 years after being hired and who
received discipline of at least a 1-day suspension. We then selected a
random sample of 287 Correctional Officers hired in FY 2007 and
FY 2008 with no reported misconduct. Our analyses of data from the
personnel files of those 458 Correctional Officers found 2 characteristics
that, standing alone, were predictive of good behavior, and 7
characteristics that, when they appeared in particular combinations,
were predictive of bad behavior. Appendix III provides a detailed
discussion of our methodology and analysis.

      The proof of concept demonstrated by our statistical procedures
and logistic regression analysis found that combinations of applicants’
characteristics are predictive of future conduct. We believe the BOP
should assess the value of establishing a composite scoring system that
takes into account combinations of characteristics for evaluating
Correctional Officer applicants’ suitability as part of its hiring process.
Below, we summarize the results of our analyses and outline the concept
that combinations of background characteristics are a useful indicator of
future behavior.

Predictors of Correctional Officer Behavior

       Of the 175 Correctional Officer characteristics we analyzed, 2 were
predictive of a greater likelihood of good behavior. Seven other
characteristics, if they appeared in particular combinations, were
predictive of a higher likelihood that Correctional Officers would commit
substantiated misconduct resulting in at least a 1-day suspension within
the first 2 years of being hired.

      The two characteristics that were predictive of good conduct were
duration of the longest civilian job previously held and education level.
Specifically, as the duration of Correctional Officers’ longest held prior

U.S. Department of Justice                                                 18
Office of the Inspector General
Evaluation and Inspections Division
civilian jobs increased, the likelihood they would commit misconduct
while employed by the BOP decreased. Similarly, Correctional Officers
who had earned college credits or a degree had a significantly lower
likelihood of committing substantiated misconduct resulting in at least a
1-day suspension within the first 2 years of being hired. The BOP does
not currently require a specific level of education for Correctional Officer
applicants unless they lack qualifying work experience. While we are not
providing an education recommendation, we believe the BOP should
consider the predictive relationship established by our analysis between
good conduct and officers with at least some college-level education when
determining goals for the desired makeup of the BOP’s Correctional
Officer workforce.

       The characteristics that were predictive of bad conduct were being
disciplined at past jobs, separating from past jobs under unfavorable
circumstances, having one or fewer jobs with supervisory
responsibilities, having past due debts, having relatives who are inmates,
using marijuana, and working for less than 9.8 years at longest-held
civilian job.24 However, these characteristics, which we will discuss
further below, were predictive only when they appeared in particular
combinations. Although these particular combinations predicted bad
conduct, they included characteristics that would otherwise be viewed by
most people as good (such as having no past due debts). Bad conduct
was more likely to result if an applicant’s background information
displayed one of the three combinations of characteristics in Table 3.25




       24  Because our study examined a wide range of information available to the
BOP, not all of the exact data points included in the combinations we identified could
be used by the BOP in making hiring decisions. For example, the vast majority
(95 percent) of Correctional Officers in our sample met the criteria of having held their
longest civilian job for less than 9.8 years. Consequently, it would be impractical for
the BOP to limit its hiring to only candidates with prior experience exceeding 9.8 years
(although the BOP would be able to favorably consider longer periods of employment,
generally). Similarly, although the BOP uses information on incarcerated relatives
when assigning Correctional Officers to facilities, having a confined relative is not a
reason for the BOP to reject an otherwise qualified Correctional Officer candidate.
Although the BOP could not use these specific characteristics in making hiring
decisions, we included them because they demonstrate the proof of concept that
combinations of information available to the BOP can be used to better focus hiring
decisions.

       25 The statistical confidence of this finding is .98. In other words, there is only
about a 1 in 50 chance this was a random occurrence.


U.S. Department of Justice                                                              19
Office of the Inspector General
Evaluation and Inspections Division
  Table 3: Combinations of Characteristics that Make Bad Conduct 

     More Likely Within 2 Years of Correctional Officers’ Hiring 

 Characteristic                   Combination 1     Combination 2     Combination 3
 Separated from past job                                                 Yes, once or
                                        —                 No
 under unfavorable conditions                                               twice
 Disciplined at past job               Yes                 —                 —
 Supervisory experience                              Fewer than 2
                                        —                                    —
                                                       positions
 Relatives who are inmates in
 any federal, state, or local           —                 No                 —
 institution
 All credit accounts current           Yes                No                 No
 Past use of marijuana                 Yes                 —                 —
 Worked for less than 9.8
 years at longest-held civilian        Yes                Yes                Yes
 job

Note: A dash means the characteristic was not part of the combination.


      Five of the seven characteristics are self-explanatory, but two
require explanation:

   	 Prior Unfavorable Job Separation – Refers to applicants leaving
      past jobs under unfavorable circumstances other than being
      dismissed for cause.26 The BOP asks applicants if they were
      dismissed or if they resigned in lieu of dismissal from a job, but
      not whether other unfavorable circumstances occurred at the time
      they left a previous job. Such circumstances include leaving
      without giving notice, being involved in a fight with a co-worker, or
      not being eligible for rehire because of behavior problems such as
      temperament or an inability to get along with others. When we
      factored these other types of unfavorable circumstances into our
      analyses we found that, if certain other characteristics were also
      present in a Correctional Officer’s background, they were predictive
      of substantiated misconduct resulting in at least a 1-day
      suspension within the first 2 years of being hired by the BOP.



       26 We did not find any correlation between the number of times an officer had
been dismissed for cause from past jobs and an officer’s behavior after joining the BOP.
Therefore, our analysis focused on unfavorable job separations other than dismissal for
cause.


U.S. Department of Justice                                                              20
Office of the Inspector General
Evaluation and Inspections Division
   	 All Credit Accounts Current – Refers to applicants’ credit history.
      In the table above, “no” means applicants with at least one
      collection account with a balance or at least one financial
      judgment or at least one account with a past due balance. “Yes”
      means applicants with no such balances or judgments.

       While the combinations our analyses identified are statistically
significant, some are not intuitive. For example, Combination 1 identifies
“all credit accounts current,” a seemingly positive aspect of an
individual’s background, to be a variable that when taken in combination
with three other variables is predictive of bad behavior. What our
analysis shows is that combinations of characteristics matter in
predicting the likelihood of misconduct resulting in at least a 1-day
suspension. If the BOP were to systematically evaluate individuals based
on combinations of factors in addition to the single thresholds on which
it now relies, it might enhance its screening practices. The combinations
the BOP uses would likely not be identical to ours. Instead, if the BOP
assesses the value of using combinations in its screening practices and
decides to implement a composite scoring system, the system would
likely include the BOP’s own analysis and judgment and could be used in
conjunction with or incorporated into the Guidelines of Acceptability.




U.S. Department of Justice                                              21
Office of the Inspector General
Evaluation and Inspections Division
       As discussed in the Background section, OPM assigns a case
closing code according to a process that assesses the severity of potential
character and conduct concerns found during the course of the
background investigation. The Chief of the BOP’s SBIS told us he often
sees that OPM has assigned a more serious case closing code because of
the presence of several less serious issues in different categories covered
in an investigation. He said that if the BOP had a similar capability, it
might be able to screen out unsuitable candidates earlier in the process.
According to the Chief of SBIS, composite scoring would enable staff to
consistently rate the
composite picture of             Combined Versus Individual Characteristics
candidates, would align
the BOP’s rating              Below is a real example from the BOP’s files of how
                              a Correctional Officer applicant’s background
methodology more closely      characteristics, when looked at individually, may
with OPM’s, and would         not exceed the Guidelines of Acceptability, but
therefore result in less      taken in combination with each other may reflect a
uncertainty about             background not suitable for work in a correctional
whether objections to         setting.
candidates will be            A Correctional Officer hired by the BOP had the
sustained.                    following negative characteristics:

                                  	 Resigned from two previous jobs in correctional
       Currently, BOP                facilities under unfavorable circumstances.
hiring officials are given           This person quit both jobs in the middle of
discretion to subjectively           work shifts, with one resignation taking place
evaluate the composite               immediately preceding a meeting with
picture of an individual’s           supervisors to address allegations of
                                     introducing contraband into the prison.
background, in addition
to the objective                  	 Terminated from one previous job.
thresholds described in           	 A Protection from Abuse Order was filed against
the Background section               this person after allegedly assaulting a
                                     significant other with a tire iron.
of our report, in order to
determine suitability.            	 Showed anger and hostility while working with
                                     juvenile inmates at a previous correctional job.
However, in practice, few
hiring managers use this          	 History of absences without leave at previous 

                                     jobs. 

ability due to uncertainty
about whether an                  	 Several financial accounts in collections.
objection to a candidate          	 At least one default judgment related to 

based on a manager’s                 personal finances. 

discretion will be               This person was hired by the BOP because none of
sustained by the                 the individual behaviors exhibited above exceeded
Consolidated Employee            the Guidelines of Acceptability. After entering on
Services Center. We              duty at a BOP prison, this individual received two
                                 substantiated incidents of misconduct and
believe such uncertainty         resigned while still on probation.
could be alleviated by

U.S. Department of Justice                                                              22
Office of the Inspector General
Evaluation and Inspections Division
creating a composite scoring system that is used consistently across the
BOP. Indeed, the Consolidated Employee Services Center would then
have a specific guideline it could point to in order to sustain an objection.
As is the case with applicants who exceed any one Guideline of
Acceptability threshold, a failure to pass the composite scoring system
could be overcome with a waiver.

       The results of our regression analysis show proof of the concept
that combinations of background characteristics are predictive of future
conduct and can be used to decrease the chances of hiring an individual
who will later commit misconduct. Creating a composite scoring
mechanism could strengthen the BOP’s ability to reject an unsuitable
applicant before an offer of employment is made and strengthen SBIS’s
ability to judge an employee’s overall suitability once the background
investigation is complete.

Potential Benefits of Composite Scoring

       To provide an estimate of the benefits of a composite scoring
mechanism, we performed an additional analysis to find how many of the
Correctional Officers in our sample would have been identified by the
three predictive combinations that surfaced in our analyses. This was an
analysis based on the findings of the classification tree, conditional
inference tree, and logistic regression analyses, but performed
separately. We found that, based on our sample, the tangible benefits of
the BOP using composite scoring to assess Correctional Officer
applicants could be substantial. Specifically, the 3 predictive
combinations would have identified 67 (39 percent) out of 171
Correctional Officers in our sample who committed serious,
substantiated misconduct. In contrast, the 3 predictive combinations
would have identified only 32 (11 percent) out of 287 Correctional
Officers who did not commit misconduct.27 Thus, the combinations
would have been a useful tool in assessing Correctional Officer
applicants in our sample and, consequently, would have enhanced the
safety and security of the prisons in which the 67 identified Correctional
Officers were hired.28


       27 Any screening factors, including those currently found in the BOP’s
Guidelines of Acceptability, eliminate some applicants who will never commit
misconduct along with applicants who will.

       28 Because the population of Correctional Officers we drew our sample from did
not include the applicants who had already been screened out by the BOP’s Guidelines
                                                                               (Cont’d.)
U.S. Department of Justice                                                          23
Office of the Inspector General
Evaluation and Inspections Division
      Our additional analysis also found that the BOP could realize cost
savings by using composite scoring to identify Correctional Officers who
are more likely than others to commit misconduct. Correctional Officers
that are terminated due to misconduct or resign during misconduct
inquiries force the BOP to expend resources hiring and training
replacement officers. Taken together, the 3 combinations detailed above
would have identified 41 Correctional Officers in our sample who were
terminated due to misconduct or resigned during misconduct inquiries.
Had the BOP not hired those officers, it would have represented a cost
savings to the BOP for items such as training, overtime paid to staff
covering shifts of the departed Correctional Officers, additional hours of
administrative work by BOP support staff, OPM background
investigations, equipment and uniforms, and drug screening.

The BOP’s Ability to Use Predictive Characteristics

      If the BOP were to develop a composite scoring system, it might
need to alter the manner in which it collects personal information,
depending on the characteristics it includes. While the data we used in
our regression analysis came from the BOP’s files, we pulled some key
data from portions of records that do not now factor into a hiring
decision or that are not available to the BOP when it makes a hiring
decision. Below are the characteristics we found to be predictive
individually or in combination with one another, and a description of
where we obtained the information for each one within the BOP’s files.29




of Acceptability, it was not possible to estimate the additional number of applicants
from that population who would have met the criteria of one or more of the
combinations.

       29  We previously noted that the vast majority (95 percent) of Correctional
Officers in our sample met the criteria of having held their longest civilian job for less
than 9.8 years and that it would be impractical for the BOP to limit its hiring to only
candidates with prior experience exceeding 9.8 years in length (although the BOP would
be able to favorably consider longer periods of employment, generally). Similarly,
although BOP uses information on incarcerated relatives when assigning Correctional
Officers to facilities, having a confined relative is not a reason for the BOP to reject an
otherwise qualified Correctional Officer candidate. We included these characteristics in
our analysis because they demonstrate the proof of concept that combinations of
information available to the BOP can be used to better focus managers’ hiring decisions.


U.S. Department of Justice                                                              24
Office of the Inspector General
Evaluation and Inspections Division
      Education Level – We obtained the data on college education from
       the background investigation files the BOP receives from OPM after
       Correctional Officers have already begun work.30

      Duration of Prior Civilian Job – We used the OPM background
       investigations to determine the number of months Correctional
       Officers had been employed at their prior civilian jobs.

      Prior Job Discipline – We used applicants’ responses during pre-
       employment interviews and OPM background investigations to
       determine whether Correctional Officers had been disciplined at
       past jobs.

      Prior Unfavorable Job Separation – We obtained information about
       prior unfavorable job separations from the OPM background
       investigations.

      Past Supervisory Experience – We extracted our data on past
       supervisory experience from the OPM background investigations,
       which include applicants’ descriptions of their former jobs. We
       also read OPM-administered interviews of former co-workers and
       supervisors who mentioned applicants’ former supervisory
       experience.

      All Credit Accounts Current – We obtained financial history data
       from the single credit report BOP prisons request as part of pre-
       employment screening or from the OPM background investigations,
       which contain a consolidated report from all three of the national
       credit reporting bureaus.

      Relatives Who Are Inmates – We used the information about
       relatives of applicants confined in federal, state, or local facilities
       that the BOP obtains during pre-employment interviews.

      Use of Marijuana – We obtained the information about marijuana
       use from the pre-employment interviews.




       30  We collected information about education levels from the background
investigations because the BOP’s human resources database had inaccurate education
information for about 50 percent of the Correctional Officers in our sample.


U.S. Department of Justice                                                       25
Office of the Inspector General
Evaluation and Inspections Division
Conclusion

      The BOP’s system for evaluating applicants’ backgrounds does not
include a mechanism for systematically considering combinations of
characteristics to derive a risk factor when deciding whether to hire or
make a Correctional Officer a permanent member of the BOP’s staff.
However, the BOP has the authority to establish such a system. The
proof of concept demonstrated by our statistical procedures and logistic
regression analysis found that combinations of applicants’
characteristics are predictive of future conduct. We believe the BOP
should assess the value of establishing a composite scoring system for
evaluating Correctional Officer applicant suitability.

The BOP reduced the possibility of permanently hiring unsuitable
Correctional Officers by shortening the amount of time taken to
adjudicate background investigations.

      Ensuring the timely adjudication of background investigations is
essential because if derogatory information is uncovered during the
employees’ probationary period, it is easier for the BOP to terminate
them. Once employees complete their probationary periods, they have
the full bargaining unit appeal rights of permanent employees. As stated
by the Merit Systems Protection Board, probationary “terminations
typically have not given rise to the same level of uncertainty and
additional administrative costs that accompany the removals of
employees who are entitled to full procedural and appeal rights.”31

      We found the BOP greatly reduced the length of time it took to
complete background investigations of Correctional Officers from
FY 2007 through FY 2010. Because Correctional Officers remain on
probationary status for 1 year, we focused our analysis on the number of
background investigations that took over 1 year to complete. We found
the percentage of Correctional Officer background investigations
completed after the probationary year ended decreased from 43 percent
and 44 percent in FY 2007 and FY 2008, respectively, to 14 percent in
FY 2009 and 6 percent in FY 2010 (see Figure 5).




       31Merit Systems Protection Board, Navigating the Probationary Period After
Van Wersch and McCormick (September 2006), i.


U.S. Department of Justice                                                          26
Office of the Inspector General
Evaluation and Inspections Division
      Figure 5: Percentage of Correctional Officer Background 

   Investigations Completed After the Probationary Period Ended, 

                     FY 2007 through FY 2010 

                                        100%
          Percentage Completed After    90%
               Probationary Year        80%
                                        70%
                                        60%
                                        50%    43%    44%
                                        40%
                                        30%
                                        20%                                14%
                                        10%                                       6%
                                         0%
                                               2007   2008                 2009   2010
                                                             Fiscal Year


       Source: BOP SBIS data.

      The BOP official in charge of background investigation adjudication
attributed the decrease to three primary reasons. First, OPM decreased
the amount of time it took to conduct background investigations.
Second, the BOP decreased the amount of time it took to adjudicate the
completed investigations by adding 6 positions to the SBIS staff in
January 2009, bringing the total number of employees to 32. Third,
SBIS developed a system that identifies employees who have been
employed at least 10 months and whose background investigations have
not been adjudicated. SBIS then assigns a specially designated team in
an effort to complete the adjudications before the employees’ 12-month
probationary periods end.

      The BOP’s improvement in the timely adjudication of background
investigations puts it in a stronger position to remove unsuitable
Correctional Officers before they become permanent employees.




U.S. Department of Justice                                                               27
Office of the Inspector General
Evaluation and Inspections Division
                 CONCLUSIONS AND RECOMMENDATION 



      The BOP’s improvement in the timely adjudication of background
investigations has put it in a stronger position to remove unsuitable
Correctional Officers before they become permanent employees. In
FY 2010, the BOP completed 94 percent of Correctional Officer
background investigations within the 12-month probationary period, up
from 43 percent in FY 2007, making it less likely that the BOP will
permanently hire unsuitable officers.

      To further reduce the likelihood of Correctional Officer misconduct
and arrests, particularly during the first 2 years of being hired, the BOP
could consider additional ways of assessing applicants. Currently, the
BOP does not include a method of considering or assigning weights to
combinations of characteristics to derive a risk factor in its assessment
process. However, the BOP has the authority to establish such a
method.

       The OIG’s analyses of a sample of Correctional Officers hired in
FY 2007 and FY 2008 found that the tangible benefits of the BOP using
composite scoring to assess Correctional Officer applicants could be
substantial. Taken together, the 3 predictive combinations that surfaced
in our analyses would have identified 67 (39 percent) out of 171
Correctional Officers in our sample who committed substantiated
misconduct resulting in at least a 1-day suspension. In contrast, the
combinations would have screened out only 32 (11 percent) out of 287
Correctional Officers who did not commit misconduct. Thus, the
combinations would have been a useful tool in assessing Correctional
Officer applicants in our sample and, consequently, would have helped to
protect the safety and security of the prisons in which the 67 identified
Correctional Officers worked.

       In addition to helping keep BOP prisons safe, using composite
scoring could also realize cost savings. Correctional Officers who are
terminated due to misconduct or who resign during misconduct inquiries
force the BOP to expend resources hiring and training replacement
officers. Taken together, the 3 combinations detailed above would have
identified 41 Correctional Officers in our sample who were terminated
due to misconduct or resigned during misconduct inquiries. Had the
BOP not hired those officers, it would have represented a cost savings to
the BOP for items such as training, overtime paid to staff covering shifts
of the departed Correctional Officers, additional hours of administrative


U.S. Department of Justice                                              28
Office of the Inspector General
Evaluation and Inspections Division
work by BOP support staff, OPM background investigations, equipment
and uniforms, and drug screening.

      To reduce the potential for hiring unsuitable Correction Officers
and thereby to reduce misconduct among Correctional Officers, we
recommend that the BOP:

       1. Consider developing a composite scoring mechanism for
          assessing the suitability of Correctional Officer applicants.




U.S. Department of Justice                                                29
Office of the Inspector General
Evaluation and Inspections Division
            APPENDIX I: OIG METHODOLOGY FOR THIS REVIEW 



       The review employed a multi-disciplined approach consisting of
evaluation of hiring policies, regression analysis, and site visits. We
visited the BOP’s headquarters in Washington, D.C.; the Consolidated
Employee Services Center in Grand Prairie, Texas; the Security and
Background Investigation Section in Dallas, Texas; the Federal
Correctional Complex at Tucson, Arizona; the United States Penitentiary
at Hazleton, West Virginia; and the Federal Law Enforcement Training
Center in Glynco, Georgia.

Regression Analysis

       Our data analysis proceeded in a detailed, phased approach to
identify the variables that were statistically most closely related to
committing misconduct and in constructing a final overall explanatory
model. The data available for analysis contained 458 cases and 175
variables.

       Misconduct Files: We reviewed the BOP’s misconduct database to
identify all 171 of the 3,731 Correctional Officers hired during FY 2007
and FY 2008 who committed misconduct during their first 2 years of
service (ending September 30, 2010), which resulted in a punishment of
at least a 1-day suspension up to and including termination.32 We used
the date that the BOP initiated a misconduct investigation as an
approximation of the date on which the misconduct was committed.33

      Good Conduct Files: Using data of the 3,731 Correctional Officers
hired between FY 2007 and FY 2008 provided by the BOP, we identified
and randomly selected 287 Correctional Officers hired in FY 2007 or
FY 2008 who had not been the subject of any misconduct allegations or
arrests in their first 2 years of service with the BOP. We excluded from

       32 We included in our sample individuals who received penalties of termination,
suspension, reassignment, reduction in rank, or who resigned or retired under inquiry,
or who received a combination of penalties. We did not include in our sample those
with an administrative sanction of less than a 1-day suspension.

       33  Correctional Officers did not have to receive discipline within 2 years of entry
on duty to be included in our sample because it takes the BOP a median of 8 months to
investigate misconduct allegations. Rather, we sampled Correctional Officers who were
disciplined for conduct that occurred within 2 years of entry on duty, even if the officer
had been with the BOP for more than 2 years by the time a final disciplinary decision
was made.


U.S. Department of Justice                                                              30
Office of the Inspector General
Evaluation and Inspections Division
this good conduct sample any Correctional Officers with:
(1) investigations of misconduct still open, (2) allegations that were
substantiated but that resulted in a penalty less severe than a 1-day
suspension, or (3) allegations that were investigated but that were not
substantiated.34 We excluded these cases so that our sample would
consist of two more divergent groups: those with misconduct who
received administrative discipline resulting in at least a 1-day suspension
or were arrested, and those without misconduct who were not
investigated for misconduct at all.

       Variables: As proof of the concept that combinations of applicant
background information could be used to better focus the BOP’s
Correctional Officer hiring decisions, we examined a very wide range of
applicant background characteristics that would be available to BOP
personnel managers and hiring officials during the hiring process.35 We
collected data on each of the 458 Correctional Officers in our sample
from the following files and sources: background information collected
by the BOP before it made its hiring decisions, forms completed by
applicants to initiate an OPM background investigation, the OPM
background investigation reports, and documents generated by the BOP
during its adjudications of the OPM background investigations.36




       34  Penalties that we considered less severe than a 1-day suspension and
therefore excluded from our sample were a written reprimand, an oral reprimand,
“other,” and no action.

       35  Though we considered 175 applicant background characteristics, not all of
the data points that emerged in the combinations of characteristics that our analysis
identified as being predictive of conduct, would or could be used by the BOP in making
hiring decisions. Two such characteristics – duration of (the applicant’s) prior civilian
job and having relatives who are inmates – would not be considered by the BOP in a
hiring decision because of the associated practical or legal limitations of doing so.
These limitations are described in the report.

       36  At the time we selected our sample, the BOP retained a copy of the OPM
background investigation report for only 1 year after an individual left the agency. For
108 of the 458 files selected for our sample (24 percent), the Correctional Officers had
left the BOP more than 1 year before we made our data request; therefore, the BOP
could not provide us with copies of these background investigation reports. We
obtained archived copies of these reports from OPM. Archived background investigation
reports included all of the same documentation as background investigation reports we
obtained from the BOP except for copies of credit reports obtained by the BOP before it
made its hiring decisions and copies of documents generated by the BOP during its
adjudications.


U.S. Department of Justice                                                             31
Office of the Inspector General
Evaluation and Inspections Division
We entered these data into an Access database model in seven broad
informational categories: general demographic, personal life, financial,
prior civilian employment, military service, criminal and drug history,
and driving record information. A list of all variables for which we
collected data is in Appendix II.

       At the conclusion of data entry, we conducted logic checks as well
as frequency checks in order to clean our data. Logic checks were
performed to flag data entries whose values were illogical and therefore
suspect. Frequency checks were performed in order to look for and
correct data field values that evidenced data entry error.

       To identify personal background characteristics associated with
Correctional Officer misconduct, we used descriptive statistics,
correlations, univariate and bivariate analyses, multivariate classification
trees, and logistic regression analyses. Univariate and bivariate
statistical analyses were used to narrow the 175 variables to a smaller
set with the strongest relationships to misconduct. We then employed
classification tree logistic regression models to estimate the effects of
Correctional Officers’ demographic and personal history variables on the
likelihood of receiving a substantiated misconduct within the first 2 years
of service.37 Logistic regression analysis is a widely accepted method to
examine factors associated with an outcome variable of interest, such as
misconduct, controlling for the potential effect of other factors. One of
our main reasons for using a multivariate model was to determine
whether differences in the likelihood of committing misconduct were
accounted for by significant differences in personal demographic and
other characteristics that the BOP collects during the Correctional Officer
pre-employment screening process.

       Phases of Analysis: For the first step, we used univariate analysis
to explore the distributions of the variables. Univariate analysis is the
examination of a single variable and its characteristics (for example,
mean, median). This exercise allowed us to better understand the
demographics of our data and identify where recoding or additional
verification was needed. Most importantly, this analysis revealed the
extent of missing values in each of the variables, which was important for
the subsequent stages of analyses. Thirty-two variables that we collected
were excluded from the univariate analysis because they had no


       37  We use the term “serious substantiated misconduct” to describe a
substantiated misconduct allegation that results in an administrative sanction of at
least a 1-day suspension up to and including termination.


U.S. Department of Justice                                                             32
Office of the Inspector General
Evaluation and Inspections Division
meaningful information or cannot be considered by the BOP during
hiring, such as marital status, gender, race, and number of dependents.

       We next analyzed each variable individually against the
misconduct/good conduct variable through bivariate analysis. This
analysis allowed us to test how well one variable predicted the value of
another variable, for our purpose, a person’s misconduct status. This
activity identified 16 variables with statistically significant (unlikely to
have occurred by chance) independent associations with misconduct
status. These 16 variables were then selected for inclusion in the logistic
regression modeling.

      Because committing misconduct is the result of a complex
interaction of many factors, we next performed a series of multivariate
analyses to identify the relationships among the variables acting together
on misconduct status. While the bivariate tests allowed us to identify
variables with strong independent associations with misconduct, we then
performed a statistical “binary/conditional inference tree” modeling to
help us determine combinations and levels of variables that were related
to misconduct jointly. From this activity, five interaction terms arose
that most closely related with misconduct. Five new variables were then
added to our data set. Each Correctional Officer was coded according to
whether he or she met the criteria specified by each interaction term.

       While the preceding analyses revealed differences in the proportion
of Correctional Officers likely to commit substantiated misconduct across
background characteristic groups, they did not control for other factors
that also might relate to likely misconduct. Therefore, we next employed
logistic regression models to predict which factors were associated with
committing substantiated misconduct, controlling for other
characteristics. Incorporating the 16 selected independent and 5
interaction term variables, we used logistic regression models to estimate
the likelihood a Correctional Officer would commit substantiated
misconduct. For each of our logistic regression models, we tested
various model specifications to assess the model fit and stability of our
estimates.38




       38 Statistical models cannot control for all variables potentially related to
misconduct, such as whether an individual had experienced physical abuse as a child.
To the extent omitted but relevant variables are correlated with those factors that were
incorporated into our models, the estimates are subject to potential bias.


U.S. Department of Justice                                                            33
Office of the Inspector General
Evaluation and Inspections Division
Background Investigations

      We reviewed data from the BOP’s Security and Background
Investigation Section to analyze the timeliness of the BOP’s adjudication
of OPM background investigations of Correctional Officers hired from
FY 2007 through FY 2010.

Misconduct and Arrest Analysis

      We reviewed 70,602 allegations of misconduct reported to the
BOP’s Office of Internal Affairs between FY 2001 and FY 2010 to
determine the prevalence of allegations reported against Correctional
Officers.39 Specifically, we determined the number of allegations
reported each year, and examined whether the number of allegations
reported was commensurate with changes in the population of
Correctional Officers. We determined the percentage of allegations
reported each year which resulted in substantiated misconduct. We also
analyzed data provided by the OIG’s Investigations Division for trends in
the number of Correctional Officers arrested on criminal charges from
FY 2001 through FY 2010.40

State Department of Corrections Questionnaire

      We sent questionnaires to 18 state departments of corrections to
gain insights into Correctional Officer screening and selection
approaches in order to compare the BOP with the greater correctional
community. We requested information about their hiring and screening
procedures, including copies of their specific policies on hiring and
background investigations. We also requested statistical data such as
numbers of Correctional Officers hired in FY 2007 and FY 2008, and
Correctional Officer misconduct and arrest numbers for those 2 years.
All 18 states responded to our questionnaire and sent copies of policies.
Although some states provided statistical information, we were unable to
provide a statistical comparison of misconduct and arrest data across all


       39 The BOP’s Office of Internal Affairs received a total of 77,466 allegations of
misconduct during these 10 years. We excluded 6,864 of these allegations from our
analysis because they were reported from contract prisons instead of from
BOP-managed prisons. We focused our analysis on the remaining 70,602 allegations.

       40  The OIG’s Investigations Division has jurisdiction to investigate all allegations
of crimes or non-litigation-related misconduct made against Department of Justice
employees, including those of the BOP. The BOP’s Office of Internal Affairs does not
maintain information on arrests of Correctional Officers.


U.S. Department of Justice                                                               34
Office of the Inspector General
Evaluation and Inspections Division
states and the BOP because some states do not track the data we
requested and others cautioned us about the potential inaccuracy of
numbers they sent.

      Selected results from the questionnaire sent to participants are in
Appendix V. The 18 state departments of correction that participated in
our survey were:

               Alabama            Louisiana     North Carolina
               Arizona            Michigan      Ohio
               California         Mississippi   Oklahoma
               Florida            Missouri      Pennsylvania
               Georgia            New Jersey    Texas
               Illinois           New York      Virginia




U.S. Department of Justice                                             35
Office of the Inspector General
Evaluation and Inspections Division
      APPENDIX II: VARIABLES COLLECTED DURING FILE REVIEW 



       We reviewed 458 background investigation files, and collected data
on the following 175 variables and sub-variables from each file. As noted
elsewhere in this report, we excluded 32 of these variables from our
analyses because they had no meaningful information or cannot be
considered by the BOP during hiring, such as marital status, gender,
race, and number of dependents. Our analyses did not find most of the
other 143 variables to be predictive of misconduct resulting in at least a
1-day suspension in a Correctional Officer’s first 2 years of BOP
employment.

General Demographic Information

1.	  Name
2.	  Date of birth
3.	  Social Security Number
4.	  Gender
5.	  Race
6.	  Date employee filled out the Questionnaire for Public Trust Positions
     (SF-85P)
7.	 Date began work at the BOP
8.	 Prison to which employee is assigned to work
9.	 Grade level at which employee was hired (GL-5 or GL-6)
10.	 Number of items marked as a potential issue on OPM’s Case Closing
     Transmittal, the cover sheet that accompanies a completed
     investigation

Personal Life Information

11.	 Marital status
     a.	 For married employees, length of marriage (in years)
     b.	 For married or separated employees, whether employee and
          spouse live together
     c.	 For divorced employees, calendar year in which divorce finalized
12.	 Number of dependents
13.	 Number of immediate family members currently in jail (spouse,
     children, parents, or siblings)
14.	 Number of extended family members currently in jail (all other
     relatives)
15.	 Number of family members employed by the BOP
16.	 Number of residences within last 7 years
17.	 Number of years living in current residence

U.S. Department of Justice                                             36
Office of the Inspector General
Evaluation and Inspections Division
18.	 Number of years living in current state
19.	 Whether the employee received treatment for a mental health
     condition within the last 7 years
20.	 Number of statements by the employee which we characterized as
     “honest admissions”

We considered an “honest admission” to be any disclosure of potentially
negative information by the employee that would not have been uncovered
during the normal course of the background investigation. The most
common “honest admission” we saw in these files was an employee’s
confession of petty shoplifting during childhood. Another common “honest
admission” was an employee’s confession of taking the occasional pen or
notepad from a previous employer.

Financial Information

21.	 Number of open credit card accounts
     a.	 Balance owed on those open credit card accounts
22.	 Number of open mortgage loans
     a.	 Balance owed on those mortgage loans
23.	 Number of foreclosures
     a.	 If foreclosure occurred, calendar year of most recent foreclosure
24.	 Number of open vehicle loans
     a.	 Balance owed on those open vehicle loans
25.	 Number of open other loans (such as student loans or home equity
     loans)
     a.	 Balance owed on those other open loans
26.	 Amount of taxes owed to any federal, state, or local government
27.	 Number of collection accounts on credit report with a remaining
     balance
     a.	 Balance owed on those collection accounts
28.	 Whether the employee filed for bankruptcy within the last 10 years
     a.	 If yes, calendar year in which bankruptcy was filed
29.	 Number of tax liens filed against the employee
     a.	 If liens filed, calendar year of most recent lien
30.	 Number of legal judgments listed on employee’s credit report
     a.	 If legal judgments listed, calendar year of most recent judgment
31.	 Number of evictions for financial reasons
32.	 Whether employee disclosed any financial obligations that are not
     listed on the credit report (such as an obligation to pay child
     support)
33.	 OIG assessment of whether employee is current with all financial
     obligations


U.S. Department of Justice                                             37
Office of the Inspector General
Evaluation and Inspections Division
We considered an employee to be current with all financial obligations if
the credit report showed no collection accounts with a remaining balance,
and the payment history for all of the open loans (credit cards, mortgages,
vehicles, and other loans) showed that no past due balances were owed
on those accounts.

Prior Civilian Employment Information

34.	 Whether the employee had prior federal employment (not counting
     service in the military)
     a.	 If the employee had prior federal employment, the highest grade
          level achieved in that prior employment
35.	 Whether the employee previously held a security clearance
     a.	 Whether the employee ever had a security clearance suspended
          or denied
36.	 Number of times the employee has been fired as a result of
     misconduct or poor performance
     a.	 If the employee has been fired, calendar year of most recent
          firing
37.	 Number of times employee was disciplined at work (not including
     firing)
38.	 Number of times employee separated from a prior job under
     unfavorable circumstances (not including firing)
39.	 Number of jobs held within the last 7 years
40.	 Duration of the longest-held prior job, in months
41.	 Number of prior jobs involving supervision of other people

This may include supervision of other employees, such as a manager, or
supervision of other individuals who are not fellow employees, such as a
teacher.

42.	 Whether employee has completed any work-related training courses
     or obtained any training certifications
43.	 Whether the employee has prior correctional experience
     a.	 If yes, total number of months of prior correctional experience
          from one or more jobs
44.	 Whether the employee has prior civilian law enforcement experience
     other than in corrections (such as a police officer or a sheriff’s
     deputy)
     a.	 If yes, total number of months of prior civilian law enforcement
          experience from one or more jobs




U.S. Department of Justice                                               38
Office of the Inspector General
Evaluation and Inspections Division
Military Information

45.	 Whether the employee ever served on active duty in the United
     States military
46.	 Whether the employee ever served in the military reserves or the
     National Guard

We collected the following 11 variables only for those employees who
reported active duty service and/or reserve duty service:

47.	   Highest rank achieved
48.	   Date of discharge
49.	   Type of discharge
50.	   Total length of military service, in months

If the employee reported both active duty service and reserve duty service,
we added the number of months spent in each type of military service and
recorded the grand total.

51.	 Number of summary courts martial
     a.	 If one or more summary courts martial, calendar year of most
          recent one
52.	 Number of special courts martial
     a.	 If one or more special courts martial, calendar year of most
          recent one
53.	 Number of general courts martial
     a.	 If one or more general courts martial, calendar year of most
          recent one
54.	 Number of non-judicial punishments (may be called Article 15 or
     Page 11, depending on branch of service)
     a.	 If one or more non-judicial punishments, calendar year of most
          recent one
55.	 Whether employee was deployed to Iraq or Afghanistan
56.	 Whether employee had military law enforcement experience
     a.	 If yes, total number of months of prior military law enforcement
          experience from one or more jobs
57.	 Number of military commendations received which indicate a high
     level of performance

Criminal and Drug History

The following eight variables are based on specific questions that the BOP
asks applicants during their pre-employment interviews.


U.S. Department of Justice                                               39
Office of the Inspector General
Evaluation and Inspections Division
58.	 Number of times employee took money or merchandise from a
     previous employer, or from a store
     a. If one or more incidents, value of money or merchandise taken
     b. If one or more incidents, calendar year of most recent incident
59.	 Number of times employee made intentional false statements, or was
     involved in deception or fraud (including falsification of his or her
     BOP application)
60.	 Number of times employee has offered or accepted a bribe
61.	 Number of times employee has been involved in extortion or coercion
62.	 Number of times employee has been involved in introducing
     contraband into a correctional environment
     a.	 If one or more incidents, calendar year of most recent 

          introduction of contraband 

63.	 Number of times employee has been involved in excessive use of
     force as a law enforcement official, conduct such as abuse of any
     person detained or confined in law enforcement’s custody, or aiding
     and abetting any such acts
     a. If one or more incidents, calendar year of most recent incident
64.	 Number of uses of physical force or violence (not including any
     incidents counted in the variable above)
     a. If one or more incidents, calendar year of most recent incident
65.	 Number of occurrences of domestic abuse or child abuse
     a. If one or more incidents, calendar year of most recent incident

For past criminal behavior, we first counted the number and type of
criminal charges that had been filed against the employee in the past,
without regard to whether any of these charges resulted in a conviction.
We subdivided criminal charges into the following 10 categories.
Examples are listed for each category, but those examples are not
necessarily an exclusive list of the charges that we counted in that
category.

66.	 Number of violent charges (assault, battery, menacing)
     a. If one or more charges, calendar year of most recent charge
67.	 Number of property charges (vandalism, burglary)
     a. If one or more charges, calendar year of most recent charge
68.	 Number of monetary charges (embezzlement, writing bad checks)
     a. If one or more charges, calendar year of most recent charge
69.	 Number of weapons charges (possessing a firearm without a license)
     a. If one or more charges, calendar year of most recent charge
70.	 Number of vehicular charges, excluding driving while intoxicated
     (reckless driving)
     a. If one or more charges, calendar year of most recent charge
71.	 Number of driving while intoxicated charges

U.S. Department of Justice                                                 40
Office of the Inspector General
Evaluation and Inspections Division
       a. If one or more charges, calendar year of most recent charge
72.	   Number of other alcohol-related charges, excluding driving while
       intoxicated (minor in possession of alcohol, drunk in public)
       a. If one or more charges, calendar year of most recent charge
73.	   Number of marijuana charges (possession)
       a. If one or more charges, calendar year of most recent charge
74.	   Number of illegal drug charges, excluding marijuana (possession)
       a. If one or more charges, calendar year of most recent charge
75.	   Number of other charges (disorderly conduct, any charges that do
       not fit into one of the other categories listed)
       a. If one or more charges, calendar year of most recent charge

After we counted the total number of criminal charges that had been filed
against the employee, we counted the number of those charges which
resulted in a criminal conviction. We subdivided convictions into the same
10 categories:

76.	 Number of violent convictions
     a.	 If one or more convictions, calendar year of   most recent
         conviction
77.	 Number of property convictions
     a.	 If one or more convictions, calendar year of   most recent
         conviction
78.	 Number of monetary convictions
     a.	 If one or more convictions, calendar year of   most recent
         conviction
79.	 Number of weapons convictions
     a.	 If one or more convictions, calendar year of   most recent
         conviction
80.	 Number of vehicular convictions
     a.	 If one or more convictions, calendar year of   most recent
         conviction
81.	 Number of driving while intoxicated convictions
     a.	 If one or more convictions, calendar year of   most recent
         conviction
82.	 Number of other alcohol-related convictions
     a.	 If one or more convictions, calendar year of   most recent
         conviction
83.	 Number of marijuana convictions
     a.	 If one or more convictions, calendar year of   most recent
         conviction
84.	 Number of other illegal drug convictions
     a.	 If one or more convictions, calendar year of   most recent
         conviction

U.S. Department of Justice                                                41
Office of the Inspector General
Evaluation and Inspections Division
85.	 Number of other convictions
     a.	 If one or more convictions, calendar year of most recent
          conviction
86.	 Whether the employee has ever used marijuana
     a.	 If yes, calendar year of last use
87.	 Whether the employee has ever used an illegal drug other than
     marijuana
     a.	 If yes, calendar year of last use
88.	 Whether the employee has ever used alcohol while on the job
     a.	 If yes, calendar year of last use
89.	 Whether the employee has ever used illegal drugs (including
     marijuana) while on the job
     a.	 If yes, calendar year of last use
90.	 Whether the employee has ever come to work while under the
     influence of any illegal drug (including marijuana)
     a.	 If yes, calendar year of last occurrence
91.	 Whether the employee has ever refused to submit to an employer’s
     drug test
     a.	 If yes, calendar year of last refusal
92.	 Number of times the employee has undergone treatment for
     substance abuse
     a.	 If one or more treatments, calendar year in which employee last
          received treatment

Driving History

93.	 Number of traffic tickets as a result of moving violations
     a.	 If one or more, calendar year of most recent ticket
94.	 Number of times driver’s license suspended or revoked
     a.	 If one or more, calendar year of most recent suspension or
         revocation




U.S. Department of Justice                                            42
Office of the Inspector General
Evaluation and Inspections Division
       APPENDIX III: REGRESSION ANALYSIS METHODOLOGY 



       The objective of the analysis was to develop predictive models
between substantiated misconduct (hereafter referred to as misconduct)
by Correctional Officers at the Federal Bureau of Prisons, and the data
describing multiple characteristics of Correctional Officers obtained from
their applications, credit history and background investigations. The
data available for analysis had 458 cases and 175 variables. Of these
458 cases, 171 were cases of substantiated misconduct, and 287 were
cases where there was no misconduct.

       We analyzed the data in a phased manner. The analytical phases
were: univariate analysis of the predictors to validate the data in the
variables, bivariate analysis relating each of the predictors to
substantiated misconduct, multivariate tree analysis to uncover
interactions among predictor variables and to predict misconduct, and,
finally, multivariate logistic regression modeling to predict misconduct.

Univariate Analyses

      Univariate examinations of the data revealed that 22 variables were
used mainly for record identification or provided no meaningful data for
analysis (for example, names and social security numbers), or were
completely missing data. Hence these variables were not considered for
analysis. The univariate examinations also helped in classifying the
remaining 153 variables as being either categorical (or nominal) or
quantitative (numeric or ordinal) in nature.

      We examined descriptive statistics such as mean, quartiles,
median, variance, and standard deviation for each of the numerical
(ordinal or interval scaled) predictors. For categorical variables, we
examined the frequency distribution of the counts in the categories.

      We modified variables related to date of events (for example, date of
marriage) to “number of days before a reference date.” The reference
date chosen was the enter-on-duty date.

Bivariate Analyses

      We conducted bivariate analysis to assess the strength of
association of each of the predictor variables with the misconduct
variable. We employed two different type tests of association:


U.S. Department of Justice                                               43
Office of the Inspector General
Evaluation and Inspections Division
   1. Chi-Square test of Independence, to test the association of each of
      the categorical variables with the misconduct dependent variable.
   2. Test of equality of means of a variable across the two groups, to
      test the association of each of the numeric (interval or ratio scaled)
      variables with the misconduct dependent variable.

Chi-Square tests of independence: Let x and y be two categorical
variables, with number of categories M and N. If we consider the cross-
tabulation of x and y that has M rows, N columns and sample size of n,
with the general cell denoted by the pair (i,j), then the Chi-Square
statistic is defined as:

                                                 ሺ୬୧୨ିୣ୧୨ሻଶ
                Chi െ Square ൌ χ 2 ൌ ∑M    N
                                      ୧ୀଵ ∑୨ୀଵ                (1)
                                                     ୣ୧୨


Where
          ni is the number of cases in the ith category of variable x
          nj is the number of cases in the jth category of variable y, and
          nij = number of cases in the ith category of variable x and jth
           category of y.
          eij is the expected count in the (i,j)th cell and defined as

                                      eij ൌ ninj/n

       The test statistic given in equation (1) was computed for each of
the categorical predictors (independent variables). Each of the
categorical predictors were then ranked in an ascending value of
probability of the p-value (area under the chi-square distribution to the
right of the statistic computed using formula (1)). Lower p-values
denoted a more statistically significant association of that predictor with
the misconduct dependent variable. We used a p-values of .05 or below
to choose variables. We selected six variables based on the p-values.

Tests of Equality of Means across two groups:

Let

          x be a numeric (interval or ratio scaled) predictor variable.
          1 and 2 denote the two categories – “misconduct” and “no
           misconduct” of the dependent variable.
          n1 denote the number of cases in the 1st category (misconduct)
           of the dependent variable


U.S. Department of Justice                                                    44
Office of the Inspector General
Evaluation and Inspections Division
          n2 is the number of cases in the 2nd category (no misconduct) of
           the dependent variable,
          X1 denote the mean of variable x for the cases that fall in the 1st
           category of the misconduct dependent variable,
          X2 denote the mean of variable x for the cases that fall in the 2nd
           category of the misconduct dependent variable
          Let s1 denote the sample variance of x for the 1st category of the
           misconduct dependent variable.
          Let s2 denote the sample variance of x for the 2nd category of the
           misconduct dependent variable.

The t statistic to test whether the population means are different is
calculated as follows:


                                                  ഥ భ ିX
                                                  X    ഥమ
                                             ‫ݐ‬ൌ                                      (2)
                                                  ୱX
                                                   ഥ భ షX
                                                        ഥమ



Where

                                                         ‫ݏ‬ଵଶ   ‫ݏ‬ଶଶ
                                    ܵXഥభ ିXഥమ ൌ ඨ            ൅
                                                         ݊ଵ ݊ଶ

s12 and s22 are unbiased estimators of the variance in the two
misconduct groups in the sample. The degrees of freedom (d.f.) are
calculated as:
                                                                     ଶ
                                              ‫ݏ‬ଶ      ‫ݏ‬ଶ
                                             ቆ ଵ ൗ݊ଵ ൅ ଶ ൗ݊ଶ ቇ
                   d. f. ൌ               ଶ                               ଶ
                              ‫ݏ‬ଶ                              ‫ݏ‬ଶ
                             ቆ ଵ ൗ݊ଵ ቇ                       ቆ ଶ ൗ݊ଶ ቇ
                                         ൙                               ൙
                                          ሺ݊ଵ െ 1ሻ ൅                      ሺ݊ଶ െ 1ሻ



       The test statistic (equation 2) was computed for each of the
numeric predictors (independent variables). Then, a p-value was
determined from the Student’s t distribution, and each of the numerical
predictors were then ranked in an ascending p-value (area under the
tails of the t- distribution) to determine the numeric predictors that have
the highest association with the misconduct dependent variable.

U.S. Department of Justice                                                                 45
Office of the Inspector General
Evaluation and Inspections Division
Predictors with the lowest p-value have the highest degree of association
with the misconduct dependent variable. We selected 11 variables that
had p-values below .05 for further consideration in multivariate analysis.

Multivariate Analyses Using Binary Classification Tree Models:

      We used two Tree-based analytical modeling approaches to
determine the significant combinations of various variables (interactions)
that predicted the presence or absence of misconduct:

   1. Recursive Partitioning, implemented as “rpart” function in R, and
   2. Conditional Inference Trees (implemented as “ctree” in R).

       Both Recursive Partitioning and Conditional Inference Trees
represent heuristic approaches to predictive modeling that capture non-
linearity in the data. While many such approaches exist, we will present
one version of the tree algorithm in very generic terms, closely related to
the two models that we used, recognizing that there is no one approach
that can claim superiority over other approaches.

A General Description of a Binary Classification Tree Modeling Algorithm

Let
            N be the number of cases
            Kc be the number of categorical (ordered or unordered) predictor
             variables, and Kn be the number of numeric predictors, where K
             = Kc + Kn.
            y denote the (N x 1) vector of the binary dependent variable
             values yj, , j = 1, …, N. Permissible values are1 (Misconduct)
             and 0 (no misconduct)
            xi denote the vector of values for the ith variable, i = I … K. Each
             vector has N values.

       Various algorithms have been implemented for Tree modeling. We
present below a very generic form of one such algorithm for readers to get
a flavor of the analytics used in Tree models.

      Tree modeling algorithms can be characterized as repetitive
procedures that build trees in the following iterative fashion:

Initial settings: let i = 0, node = 0;

      1. i = i + 1
      2. Choose variable i
U.S. Department of Justice                                                    46
Office of the Inspector General
Evaluation and Inspections Division
   3. If the variable i is a categorical variable, perform the following
      steps:
          a.	 If variable i is a categorical variable, count the number of
              categories (Ci).
          b. Form a 2-way 2x2 cross-tabulation of the dependent variable
              (y) with variable i (xi).
          c.	 Compute a measure of association using the 2-way cross-
              tabulation. Call the measure Ai.
          d. Rep*eat the b-c for all possible 2x2 cross-tabulations that
              can be formed with the Ci categories.
          e.	 Choose the cross-tabulation that yields the maximum
              association as the winning cross-tabulation, and record the
              combinations of levels of variable i that formed the 2 “levels”
              of the winning cross-tabulation.
   4. If the variable i is a numeric variable, perform the following steps:
          a.	 Choose a “splitting” point in the range of variable xi. and bin
              it into two buckets: to the left of it (lower than the chosen
              point), and right of it (higher than the chosen point).
          b. Form a 2-way 2x2 cross-tabulation of the dependent variable
              with the new binned variable.
          c.	 Compute a measure of association using the 2-way cross-
              tabulation. Call the measure Ai.
          d. Repeat the b-c for different splitting-points until a value is
              found in the range of variable xi that maximizes the measure
              of association Ai.
          e.	 Choose the cross-tabulation that yields the maximum
              association as the winning cross-tabulation, and record the
              “Splitting point” of the winning cross-tabulation.

   5. Repeat steps 1-4 for i = 1, …, K.
   6. Choose the variable that has the best association with the 

      dependent variable. Call it the winning predictor, xw.

   7. Divide the cases into the 2 groups specified by variable xw, and call
      the nodes n+1 and n+2.
   8. Set i = 0.
   9. Set n = n+2.
  10. Repeat the steps 1-9 for each terminal node found in Step 7.
  11. Stop when the node size is less than a pre-specified amount, or the
      measure of association with dependent variable is not strong
      enough.

      The algorithm detailed above assumes that at every stage of the
tree building process, the algorithm compares the “optimal splits for each
variable” before choosing which variable to split on. This gets

U.S. Department of Justice                                                47
Office of the Inspector General
Evaluation and Inspections Division
computationally complex and time/resource intensive, especially when
one is dealing with many categorical predictors and/or categorical
predictors with a large number of categories.

       Some current versions of tree models separate out stages of
“determining which variable to split on” from “determining the best split
for the variable” in two distinct phases.

       Rpart in R uses “Gini index” as a measure of association, while
ctree in R uses p-values based on statistical tests to determine which
variables to split on.

       The Gini index is defined as

                                           L      L

                            Gini index ൌ ෍ ෍ p୧ p୨
                                          ୧ୀଵ ௝ ஷ୧,୨ୀଵ


where L is the number of categories of the dependent variable, where pi is
the proportion of cases in category i of the dependent variable.

Results of Binary Recursive Partitioning Procedures:

       We employed rpart algorithm from R for one of the two binary
classification tree analyses. We generated and examined multiple binary
trees for their predictions and associated combinations of variables. An
eight node classification tree with minimum split size of 60 or more was
considered. This option correctly classified 253 out of 287 (over
88 percent) good conducts and 66 of 171 (over 38 percent) of
misconducts yielding overall correct classification of 319 of 458 (over
69 percent) as presented in Table 4.

                 Table 4: Results for 60 Node Tree: Rpart
             From Data:          Good                       Total from
                                           Misconduct
                                conduct                       Data
             Good conduct         253
                                                  34           287
                                (88.2%)
             Misconduct           105          66 (38.6%)      171
             Total from
                                  302             156          458
             Predictions

       The graph of the tree is presented in Figure 6.




U.S. Department of Justice                                               48
Office of the Inspector General
Evaluation and Inspections Division
                                      Binary Classification Tree Analysis Using rpart Algorithm
                                      Number of Terminal Nodes: 8
                                                                                                                    Bal_Other_
                                                                                                                   Delinquencies




U.S. Department of Justice
Office of the Inspector General
                                                                                           <89                                                          >89




Evaluation and Inspections Division
                                                        Longest_Civil
                                                                                                                                                                       Hiring_Age
                                                            _Job

                                                >69.5                   <69.5                                                                                     >28.12      <28.12

                                       Node 1                                                                                                                 Node 7                Node 8
                                        No                                        Other_Debts                                                                  No                    Yes
                                       93 obs                                                                                                                 54 obs                33 obs
                                                                        >3.5                          <3.5

                                                        Node 2
                                                                                                                Disciplined
                                                         No
                                                        26 obs
                                                                                                        <0.5                   >0.5

                                                                                          Bal_Other                                      Bal_Trans
                                                                                           _Loans                                         _Loans

                                                                                     <3,747      >3,747                               >1,975   <1,975
                                                                                                                                                                                             Figure 6: Binary Classification Tree




                                                                                Node 3                 Node 4                 Node 5                 Node 6
                                                                                  No                    Yes                    No                     Yes
                                                                                136 obs                45 obs                 49 obs                 22 obs




                       49
       We employed conditional inference (CI) tree algorithm from R, as in
the case of rpart, but with weighting the misconduct case by 2:1 in order
to extract the effect of explanatory variables on the response variable.
The CI tree analysis resulted with a thirteen terminal node tree as
presented below. The correct classification of misconducts was 126 of
171 (over 73 percent) and good conducts 191 of 287 (over 66 percent), as
presented in Table 5.

                       Table 5: Predictions from ctree
                                                           Total from
                             Good Conduct   Misconduct
                                                             Data
           Good conduct       191 (66.6%)        96           287
           Misconduct              45       126 (73.7%)       171
           Total from
                                      236      222            458
           Predictions



       This CI tree graph is also presented in Figure 7.




U.S. Department of Justice                                              50
Office of the Inspector General
Evaluation and Inspections Division
              Figure 7: Binary Classification Tree Analysis




U.S. Department of Justice                                    51
Office of the Inspector General
Evaluation and Inspections Division
Multivariate Analysis Using Logistic Regression

Let

           N be the number of cases.
           K+1 be the number of predictor variables, including the additive
            constant.
       	   y denote the (N x 1) vector of the binary dependent variable
            values yj, , j = 1, …, N. Permissible values are1 (Misconduct)
            and 0 (no misconduct).
       	   xi denote the vector of values for the ith case, i = 1 … N. Each
            vector xi has (K+1) elements xij, j = 1, 2, …, K+1.
       	   X denote the N x K+1 matrix of predictors, containing no
            missing data.
       	   β denote the (k+1 x 1) vector of coefficients for the K variables
            and an additive constant β0. The elements of β are β0, β1, β2,…,
            βk, the parameters to be estimated.
       	   pi denote the probability that yi for case i takes on the value
            “Misconduct”. Then probability of “no misconduct” = 1- pi. Since
            pi + (1-pi) = 1, it can be seen that probability(“Misconduct”) +
            probability(“no misconduct”) = 1, for i = 1, …, N.


       Then, the Logistic Regression equation can be written as


                                                p୧
                                      log ൤         ൨ ൌ β଴ ൅ βଵ x୧ଵ ൅ βଶ x୧ଶ ൅ βଷ x୧ଷ ൅ …
                                              1 െ p୧

               ൅ ൅ β୩ x୧୩                             ሺ3ሻ
	


      The function log[p/(1-p) ] is the “Logit” function. The equation in 3
can be rearranged to get:

                                                 ௘ ઺࢞i
Probability (yi = “Misconduct”) = p୧ ൌ                                             (4)
                                                ଵା௘ ઺࢞i

Where pi + (1-pi) = 1 for 1 = 1,2, …, N.

      In equation (4), the vector of coefficients β is unknown. The most
common estimation procedure is the usage of Maximum Likelihood
Estimation (MLE) techniques. The likelihood function to be maximized is
written as:

U.S. Department of Justice                                                            52
Office of the Inspector General
Evaluation and Inspections Division
                        ౟        ୷   ଵି୷౟
                 e઺‫ܑܠ‬
                 ே            1
       Lൌ ෑ ቆ       ઺‫ܠ‬
                       ቇ ൬          ൰                                        ሺ5ሻ
           ୧ୀଵ 1 ൅ e ܑ     1 ൅ e઺‫ܑܠ‬

Since the logarithmic transformation increases monotonically,
maximizing L is equivalent to Maximizing Log(L), with the additional
advantage of obtaining a numerically simpler function. Applying the
logarithmic transformation yields:
                                                    ୷౟            ଵି୷౟
                                             ୣ઺‫ܑܠ‬          ଵ
                     LogሺLሻ ൌ ∑N
                               ௜ୀଵ log ൜ቀ      ઺‫ ܑܠ‬ቁ ቀ            ቁ      ൠ   ሺ6ሻ
                                            ଵାୣ          ଵାୣ઺‫ܑܠ‬


This function has been shown to be globally concave, and results in
globally optimal solutions upon maximization with respect to the
unknown parameters in vector β.

To obtain the estimates for β – called ෡઺, we need to find the values that
maximize the Log(L) function of equation (6). In order to accomplish
that, we need to differentiate Log(L) by each of the K+1 coefficients.

The resulting equations after first order differentiation with respect to the
coefficients are given as

            N

           ෍ሾy୧ െ p୧ ሿ ൌ 0                                                   ሺ7ሻ
           ୧ୀଵ

when differentiated with respect to the additive constant β0 , and
           N

          ෍ x୧୨ ሾy୧ െ p୧ ሿ ൌ 0                                               ሺ8ሻ
          ୧ୀଵ

when differentiated with respect to β1, β2, …, βk.

       The solution to these equations yields the globally optimal
solution. Function glm in R and procedure Logistic Regression in SPSS
to find the optimal solutions.

       The variance and covariance of the estimated coefficients are based
on the theory of maximum likelihood estimation. These estimates are
obtained from the second partial derivatives of the log likelihood function
specified in equation (6). These second order partial derivatives are:


U.S. Department of Justice                                                   53
Office of the Inspector General
Evaluation and Inspections Division
                     N
       ∂ଶ Lሺβሻ
                 ൌ ෍ x୧୨ଶ p୧ ሺ1 െ p୧ ሻ                                       ሺ9ሻ
         ∂βଶ୨       ୧ୀଵ


and

                     N
      ∂ଶ Lሺβሻ
              ൌ ෍ x୧୨ x୧୳ p୧ ሺ1 െ p୧ ሻ                                   ሺ10ሻ
      ∂β୨ ∂β୳
                    ୧ୀଵ

for j, u = 1,2, …, K.

       If we define I(β) as a (K+1) x (K+1) matrix containing the negative of
terms defined in equations (9) and (10), then this matrix is called the
information matrix. The variances and covariances of the estimated
coefficients are obtained from the inverse of the information matrix.

       Let us denote the inverse of the information matrix as C(β). In the
general form, it is not possible to analytically write the expressions for
the elements in C(β). The ith diagonal element provides the variance of βi
and the (i,j)th element of this matrix provides the covariance between (βi,
βj ). The standard errors of the estimates are defined as square roots of
the ith diagonal of C(β). These standard errors are used in testing the
significance of each of the parameters that are estimated in the model.

       In order to assess the fit of the logistic regression model, one uses
the Akaike Information Criterion (AIC). Though Likelihood ratio based
tests, which have a Chi-Square distribution, are typically used to assess
model fit, information theoretic criteria such as AIC offer a stricter test
for models to pass before they become acceptable.

     The model with the lowest AIC score is chosen as the best fitting
model. AIC is defined as:

      AIC = -2*Log(L) + 2 * Number of parameters                         (11)


      We used AIC as our criterion for selecting the best fitting logistic
regression model.

      Once the models are estimated, the predicted probability of
Misconduct is obtained from equation (4), using the estimated coefficient
       ෡.
vector ઺

U.S. Department of Justice                                                   54
Office of the Inspector General
Evaluation and Inspections Division
Logistic Regression Analysis Results

       To minimize partially missing data problems and to drop
redundant and other collinear variables we built multiple binary logit
models on the same data set, using 25 variables. In order to select
effective interactions (or combinations) of variables, we incorporated the
results of classification trees as described above. From the classification
tree analysis results, we incorporated two interactions variables from
rpart algorithm results and thirteen interactions variables from
conditional inference tree algorithm results.

       We chose a final model that has minimized Akaike Information
Criterion (AIC) and dropped the least number of observations due to
missing data. The results of the final logistic regression model analysis
are provided in Table 6 below, which contains 10 variables of which 5 are
combination variables derived from recursive binary tree analysis.




U.S. Department of Justice                                               55
Office of the Inspector General
Evaluation and Inspections Division
             Table 6: Results of Logistic Regression Analysis 


                    Better Fitting Logistic Regression Model

                                                        Std.         z
      Variable                            Estimate      Error        value   Pr(>|z|)
      (Intercept)                         -0.81         0.44         -1.82   0.0683     .

      Education: Some College +           -0.52         0.25         -2.11   0.0351     *
      Open_Account_Current =1             0.36          0.39         0.93    0.3534
      Open_Account_Current=2              14.07         882.74       0.02    0.9873
      Longest_Civil_Job                   -0.01         0.00         -2.40   0.0163     *
      License_Suspended                   0.24          0.16         1.52    0.1287
      ctree.n16:
      Longest Civil Job <= 118
      Months                               1.33         0.44         3.00    0.0027     **
      Open Account Current = 1
      Disciplined > 0
      Used Pot: 1
      ctree.n21
      Longest Civil Job <= 118
      Months
      Open Account Current : 0 or
      2                                   1.71          0.47         3.66    0.0003     ***
      Number of Bad Job
      Separations: 0
      Know Any Jail = 0
      Supervision Jobs <= 1
      ctree.n24:
      Longest Civil Job <= 118
      Months                                2.57        0.69         3.75    0.0002     ***
      Open Account Current : 0 or 2
      Num. of Bad Job
      Separations:1 or 2

      rpart.n23:
      Balance Other
      Delinquencies < 89
      Longest Civil Job < 69.5            0.58          0.35         1.67    0.0958     .
      Other Debts < 3.5
      Disciplined >= 0.5
      Bal_Trans_Loans < $1,975

      rpart.n7:
      Balance Other
                                          1.23          0.53         2.31    0.0207     *
      Delinquencies >=89
      Hiring Age < 28.12

       Signif. codes: 0 ‘***’ 0.001 ‘**’ 0.01 ‘*’ 0.05 ‘.’ 0.1 ‘ ’



U.S. Department of Justice                                                                    56
Office of the Inspector General
Evaluation and Inspections Division
      To assess the utility of the final model, we used the model’s results
to compute a predicted likelihood of misconduct for each of the
correctional officers in our sample.41 After sorting the likelihoods in
decreasing order, we calculated the number of actual misconducts in
each 10 percent group. The exercise indicates how well the model
predicts actual misconducts and whether it might be useful in real world
applications.42

      The table below shows the performance of the logistic regression
model in the top 20 percent of those predicted to commit misconduct and
the bottom 20 percent, representing those expected to be least likely to
commit an early misconduct. We would expect very good predictions of
misconduct in the top 20 percent, and a very good prediction of good
conduct in the bottom 20 percent. As illustrated in Table 7 below, the
model does a good job predicting those most likely to commit misconduct
and those most likely to have good conduct histories. Of the 100
correctional officers in our sample predicted to be mostly likely to commit
misconduct, 70 of them had a substantiated misconduct allegation. Of
the 100 officers predicted to be least likely to have a substantiated
misconduct, 84 had no misconduct allegations.

       Table 7: Predictions of Misconduct and Good Conduct

                           Correct Predictions of Misconduct

                             Prediction of     Prediction of     Prediction of
                               Top 10%           Top 20%           Top 100
       % Model
       Prediction               77.5%              67.5%             70.0%


                            Correct Predictions of Good Conduct

                             Prediction of     Prediction of     Prediction of
                             Bottom 10%        Bottom 20%        Bottom 100
       % Model
       Prediction               92.5%              77.5%             84.0%



       41 The final model was based on 395 observations. For 63 of the 458 cases,
probabilities could not be computed as data on at least one of the predictor variables
was missing.

       42Ideally, the hold out sample would have been used to test the predictive power
of the model. Due to the relatively small size of our sample, setting aside a hold out
group was not possible.


U.S. Department of Justice                                                               57
Office of the Inspector General
Evaluation and Inspections Division
      The model is more successful in predicting good conduct, but also
does well in targeting misconduct, which is expected to be the result of
complex factors.




U.S. Department of Justice                                            58
Office of the Inspector General
Evaluation and Inspections Division
    APPENDIX IV: THE BOP’S HIRING AND SELECTION PROCESS 



      The basic process a new Correctional Officer goes through is
described below.

Online Application Process and Scoring

       Applicants initiate the hiring process by completing the BOP’s
online application for the Correctional Officer position through the
USAJOBS.gov job portal. Application questions cover topics that include
past work history; education; veterans’ preference; and knowledge, skills,
and abilities. Once completed, the application is scored by the BOP’s
automated system according to the applicant’s answers. The minimum
qualifying score is 70 out of a maximum 110 possible points. Scores are
used to organize the applicant pool to give the highest scoring applicants
the first opportunities for interviews.

Financial History and NCIC Check

       Human Resources Managers at individual BOP prisons conduct a
credit check through a national credit reporting company and a criminal
record check through the FBI’s National Crime Information Center on
each Correctional Officer applicant prior to the scheduled pre-
employment interview. The results of the credit check are reviewed prior
to the interview.

       The NCIC is an electronic clearinghouse of crime data that can be
accessed by virtually every criminal justice agency nationwide. It
operates under shared management between the FBI and federal, state,
local, and tribal criminal justice agencies. NCIC files that are searched
in a record check include Wanted Persons, the National Sex Offender
Registry, Protection Orders, Known or Appropriately Suspected
Terrorists, and Immigration Violators.43

Pre-Employment Interview and Guidelines of Acceptability

       Each prison’s Human Resources Manager or designated alternate
interviews Correctional Officer applicants to screen for derogatory
background information as defined in the BOP’s Guidelines of

         43   FBI website, http://www.fbi.gov/about-us/cjis/ncic/ncic (accessed July 13,
2011).


U.S. Department of Justice                                                            59
Office of the Inspector General
Evaluation and Inspections Division
Acceptability. All BOP employees conducting pre-employment interviews
are trained to ask a series of standardized questions about applicants’
past and current behavior and note responses on pre-employment
interview forms.

        Prior to a pre-employment interview, the BOP requires each
applicant to be completely truthful. Candidates are informed that if they
lie in their pre-employment interview, it may result in termination or
debarment from future federal employment.44 Candidates are asked to
sign a statement at the conclusion of their interviews stating that the
interview findings are accurate and true. Applicants’ responses to pre-
employment interview questions are not verified until OPM conducts a
background investigation after an individual begins work at the BOP.
OPM and the BOP later compare the responses on the forms with the
findings of background investigations.

       The Guidelines of Acceptability establish over 30 measureable
threshold standards covering employment history; military history;
financial history; dishonest conduct, excessive use of force, and integrity;
and criminal and driving history. The Guidelines are based on the
suitability standards established in OPM’s Suitability Processing
Handbook and the Code of Federal Regulations, and are tailored to work
performed in a correctional setting. The BOP considers the specific
thresholds of these Guidelines to be sensitive and allows only selecting
officials and human resources staff to know what they are. The types of
thresholds the Guidelines of Acceptability establish include:

   	 allowable number of misdemeanor convictions within a set number
      of years,
   	 allowable number of times fired from employment for cause or
      disciplined within a set number of years,
   	 allowable number of instances of use of physical force within a set
      number of years,
   	 allowable past due debt where satisfactory arrangements for a
      payment schedule have not been made, and
   	 for applicants who served in the military, allowable number of
      military judicial and non-judicial punishments within a set
      number of years.


       44 Debarment is a prohibition from taking a competitive service examination or
from being hired (or retained in) a covered position for a specific time period.


U.S. Department of Justice                                                         60
Office of the Inspector General
Evaluation and Inspections Division
       An applicant who exceeds any one threshold is considered
unsuitable and disqualified from the applicant pool. Only if the hiring
official recognizes extenuating circumstances, and a Regional Director or
Assistant Director grants a waiver, may an applicant exceed Guidelines
of Acceptability standards and still be hired.

       A candidate found suitable as a result of the pre-employment
interview is advanced to the panel interview.

Panel Interview

       According to BOP policy, the purpose of the panel interview is to
evaluate an applicant’s qualifications, knowledge, and skills necessary
for the position. In contrast to the pre-employment interview, the panel
interview is not meant to delve into the applicant’s personal history to
judge suitability for employment in a sensitive position. However,
interviewers may broach issues covered in the pre-employment interview
in the form of follow-up questions. Areas to be evaluated during the
panel interview include knowledge, skills, and, abilities needed for the
position; general correctional work abilities; and writing skill.

       Panel interviews are conducted by three BOP staff members: a
human resources employee, a Correctional Services supervisor or
manager (such as a Lieutenant or a Captain), and a psychologist or
similarly qualified staff member. All interviewers must attend a panel
interview course before participating in panel interviews. Before an
interview begins, panel members review all available applicant
information, such as the pre-employment interview results and
application form.

       The panel interview process begins with an evaluation of the
applicant’s writing skills. The applicant is shown a videotape of a work
scenario and is asked to write a mock report based on it. Panel members
next begin the question and answer portion of the interview by asking
follow-up questions they may have about the information the applicant
provided in the pre-employment interview and application form. The
applicants are then asked standardized questions about work situations
to elicit information about their knowledge, skills, and abilities related to
the position as well as to correctional work in general.45 Interviewers are
allowed to ask questions other than the standardized questions when

       45  The BOP is working with OPM to develop an additional screening tool that
includes situational work questions designed to elicit information on the BOP’s core
values of correctional excellence, respect, and integrity.


U.S. Department of Justice                                                             61
Office of the Inspector General
Evaluation and Inspections Division
necessary to judge the acceptability of an applicant for work in a
correctional setting. However, panel members must focus on job-related
topics.

       Panel members note both the strengths and weaknesses of an
applicant’s answers on a standardized rating form. They also rate the
candidate in 10 job-related areas using a rating scale of “Excellent,”
“Acceptable,” or “Unacceptable.” If a panel member rates an applicant
“Unacceptable” in any area, the panel member must document the
reason. After the interview, the three panel members’ ratings are
combined, and the panel determines whether the applicant is acceptable.
If the panel members disagree, the Human Resources Manager reaches a
decision according to the ratings of the majority of the panel.

National Agency Check and Fingerprint Check

      Applicants who reach this point must undergo a National Agency
Check, which consists of searches of OPM’s Security/Suitability
Investigations Index, the Defense Clearance and Investigations Index, the
FBI Identification Division’s name and fingerprint files, and other files or
indices when necessary.46 If some results of the National Agency Check
are delayed, the BOP may make its hiring decision based on the
fingerprint check alone. Following successful NAC or fingerprint
screening, applicants may receive a conditional offer of employment and
have their first day of work scheduled.

Physical and Mental Health Screening

       Conditional offers of employment are contingent upon applicants
receiving satisfactory results from a physical examination, urinalysis for
detection of illegal drugs, and self-reported mental health history.

      During the mental health history screening, applicants must
disclose whether they have consulted with a mental health professional
(such as a psychiatrist, psychologist, or counselor) or another health care
provider about a mental health-related condition in the last 7 years.
Applicants answering yes to this question must provide dates of
treatment as well as the name and address of the provider they saw.

       46  The OPM Security/Suitability Investigations Index is a database of
investigations previously conducted by OPM. The Defense Clearance Investigation
Index is a database of investigations previously conducted by the Department of
Defense. The FBI Name Check is a check of all FBI investigative and administrative
cases to see if the individual’s name is associated with any of those cases.


U.S. Department of Justice                                                           62
Office of the Inspector General
Evaluation and Inspections Division
Applicants do not have to answer in the affirmative if they were involved
only in marital, grief, or family counseling not related to violence.

Background Investigation

      Every newly hired Correctional Officer must undergo a background
investigation and is subject to reinvestigation every 5 years during BOP
employment. The background investigation process is initiated once the
BOP makes a conditional offer of employment that is accepted by the
applicant. The investigation is conducted by OPM on behalf of the BOP
and covers facets of an individual’s past that may give insight into the
individual’s reliability, trustworthiness, loyalty to the United States, and
conduct and character.47 To initiate the investigation process, newly
hired Correctional Officers are required to submit details of their
background in the Questionnaire for Public Trust Positions, including
past home addresses, family information, and travel history.

      While OPM begins the investigation process as soon as a newly
hired Correctional Officer has been given a date to report to work, the
investigation is completed after the employee has begun work. It may
take several months to over a year to complete an investigation.

      Although applicants are hired before their background
investigations are conducted, if a discrepancy is found between an
applicant’s responses during the pre-employment interview and what
was discovered during the background investigation, the individual will
be asked to explain the discrepancy in writing and may be terminated if
found to have been dishonest.

       Until 2006, prison staff checked applicants’ references with prior
employers, extending back 5 years, to verify the employment information
and work history applicants provided during their pre-employment
interviews. The BOP discontinued the practice in February 2006
because OPM verifies employment information during its background
investigation process.

       47  The BOP used limited background investigations for Correctional Officers
during the time period we reviewed, but has since switched to full background
investigations. Limited background investigations include written inquiries covering the
most recent 3 years, record searches covering 5 years, and a credit search covering
7 years. Results of the credit search are provided to the requesting agency only if OPM
identifies a potential credit problem. Full background investigations extend the written
inquiries to cover 5 years. Additionally, OPM provides the requesting agency with the
results of the credit search whether there is a potential credit problem or not.


U.S. Department of Justice                                                           63
Office of the Inspector General
Evaluation and Inspections Division
Staff Training Academy

      Once hired, Correctional Officers complete a 2-week orientation at
the prison where they have been assigned. They then must attend and
graduate from the BOP’s 3-week Staff Training Academy at the Federal
Law Enforcement Training Center in Glynco, Georgia. Continued
employment at the BOP is conditional on graduating from the Staff
Training Academy. New hires remain on a probationary status for a
period of 1 year after their entry-on-duty date.

Background Investigation Adjudication

      When OPM completes the background investigation, the BOP’s
Security and Background Investigation Section adjudicates any
discrepancies that have arisen in the individual’s background
information. Although OPM raises any derogatory issues it has
discovered when performing an investigation, SBIS conducts its own
evaluation of the investigation’s results and may or may not conclude
that an issue raised by OPM is of concern. Similarly, SBIS may deem an
issue not raised by OPM as a negative factor.

       If SBIS finds a discrepancy between information found in the
background investigation and what the applicant told the BOP
interviewer during the pre-employment interview, and such information
would have barred the person from being hired under the Guidelines of
Acceptability, it will, in writing, formally ask the individual questions
relating to the topic. These questions are known as interrogatories.
Answers to these questions determine whether a Correctional Officer will
be retained or terminated. In rare cases, the Correctional Officer’s
Warden may request a waiver of the Guidelines of Acceptability. Such a
waiver must be supported by the BOP Regional Director.

      Not all background investigations are adjudicated before
Correctional Officers reach the end of their 12-month probationary
period and become tenured. Terminating a Correctional Officer based
upon derogatory information uncovered during a background
investigation is a more difficult and lengthier process after the
probationary period ends because tenured employees have full collective
bargaining unit appeal rights. Although BOP staff have unofficial goals
for completing background investigations in less than a year, no official
policy states that this must be done.




U.S. Department of Justice                                             64
Office of the Inspector General
Evaluation and Inspections Division
        APPENDIX V: STATE DEPARTMENT OF CORRECTIONS 

                       QUESTIONNAIRE 



      The OIG sent questionnaires to 18 state departments of corrections
(DOC) to collect information about the types of hiring and screening
practices they used. Below are selected results of our survey.

Table 8: Type of Employment Screening Performed by the BOP and
          18 State Departments of Corrections Surveyed

  Type of                 BOP/                      During pre-       During
  employment              state                    employment       background
  screening               DOCs        Performed?    screening?    investigation?
                           BOP            Yes           Yes
  Drug/urinalysis
                          State
  testing                              18 of 18        Yes
                          DOCs
                           BOP            No
  Psychological
                          State
  evaluation/testing                    7 of 18       7 of 7          1 of 7*
                          DOCs
                           BOP            No
  Polygraph testing       State
                                          No
                          DOCs
                           BOP           Yes           Yes
  NCIC check
                          State
  (criminal history)                   18 of 18
                          DOCs
                           BOP           Yes           Yes
  Fingerprint check        State
                                       18 of 18
                           DOCs
                           BOP           Yes           Yes             Yes
  Financial check          State
                                        3 of 18                       3 of 3
                           DOCs
                           BOP           Yes           Yes              Yes
  Military Service         State
                                       16 of 18      5 of 18        13 of 16*
                           DOCs
  Employment history       BOP           Yes                           Yes
  a. Employment            State
                                       16 of 18      5 of 16         11 of 16
  verification             DOCs
  b. Past supervisory      BOP           Yes                           Yes
  or co-worker             State
                                       13 of 18      5 of 13         9 of 13*
  interviews               DOCs
  c. Past job              BOP            No
  performance              State
                                       10 of 18      6 of 10         8 of 10*
  evaluations              DOCs
                           BOP           Yes           Yes             Yes
  Driving history          State
                                       18 of 18      8 of 18        13 of 18*
                           DOCs


U.S. Department of Justice                                                      65
Office of the Inspector General
Evaluation and Inspections Division
                           BOP            Yes                             Yes
  Residential history      State
                                       10 of 18        2 of 10          9 of 10*
                           DOCs
                           BOP            Yes            Yes              Yes
  Substance use
                           State
  history                               9 of 18         4 of 9           6 of 9*
                           DOCs
                           BOP            Yes                             Yes
  Personal reference
                           State
  checks                               14 of 18        4 of 14          11 of 14*
                           DOCs

    * On the survey form, some states checked yes for both pre-employment and
    background investigation in reporting when they performed this function,
    therefore there is overlap in the totals. For these states, their background
    investigation is conducted as part of the pre-employment process, whereas the
    BOP’s pre-employment screening and background investigations are done
    separately. The BOP’s background investigation is initiated after the employee
    is hired (post employment).

      In addition to the categories listed in Table 8 above, the state
departments of corrections surveyed listed other methods they use when
screening Correctional Officer applicants:

   	 contacting neighbors,

   	 domestic violence checks,

   	 education verification,

   	 social network checks (for example, Facebook),

   	 check of contact with current or former inmates through review of
      visitor databases or the Division of Parole, and

   	 panel interviews consisting of correctional situational questions.

       Many agencies, including the BOP, have thresholds established
against which they measure an applicant’s suitability for employment.
For example, agencies may have written guidelines or policy stating
applicants should be eliminated if they have been disciplined or fired
from previous employment within a specific timeframe, if they have
felony offenses, or if they have used certain illegal substances during a
specific timeframe. Table 9 shows the number of states in our survey
using the categories of thresholds the BOP uses.




U.S. Department of Justice                                                           66
Office of the Inspector General
Evaluation and Inspections Division
  Table 9: Categories of Thresholds Used by the BOP and the State 

          Departments of Corrections to Screen Applicants 

                                                         States with
                                                       no thresholds
                                                       that screen in
                          Does BOP      States that     this category States that do
                         use specific   use specific     on case-by- not screen for
Type of screening        thresholds?    thresholds        case basis  this category
Criminal history             Yes          18 of 18          0 of 18          0
Employment history           Yes          4 of 18           9 of 18          5
Military history             Yes          6 of 18           5 of 18          7
Driving history              Yes          6 of 18           7 of 18          5
Financial history            Yes          2 of 18           1 of 18         15
Integrity/use of force
                             Yes          6 of 18         8 of 18           4
history
Drug usage history           Yes          8 of 18         5 of 18           5




U.S. Department of Justice                                                       67
Office of the Inspector General
Evaluation and Inspections Division
      APPENDIX VI: THE BOP’S RESPONSE TO DRAFT REPORT 



                                              u.s. Department of Justice
                                              Federal Bureau of Pri sons




                                              Wm/rillgf(m. f)C 20534

                                               September 21, 2011




          MEMORANDUM FOR MICHAEL D . GULLEDGE
                         ASSISTANT INSPECTOR GENERAL FOR
                           EVALUATION AND INSPECTIONS




          FROM ,         Thomas R. Kane, Acting Director

          SUBJECT ,      Response to the Office of Inspector General's (OIG)
                         Draft Report : Enhanced Screening of BOP
                         Correctional Officer Candidates Could Reduce
                         Likelihood of Misconduct

          The Bureau of Prisons (BOP) appreciates the opportunity to respond
          to the open recommendation from the draft report entitled Enhanced
          Screening of BOP Correctional Officer Candidates Could Reduce
          Likelihood of Misconduct .

          Please find the Bureau's response to the recommendation below :

          Recommendation #1: To reduce the potential for hiring unsuitable
          Correctional Officers and thereby to reduce misconduct among
          Correctional Officers, OIG recommend that the BOP : Consider
          developing a composite scoring mechanism for assessing the
          suitability of Correctional Officer applicants .

          Response:   The BOP concurs with the recommendation to consider a
          composite scoring template for applicants.    The BOP, working with
          the Office of Personnel Management during the past year, is in the
          process of piloting a "Core Value Assessment Exam" on applicants at
          three BOP institutions . The pilot involves carefully administering
          the exam to applicants at federal institutions in Pollock, LA,




U.S. Department of Justice                                                      68
Office of the Inspector General
Evaluation and Inspections Division
          Florence, CO, and Victorvil l e, CA, during the pre-employment
          screening process . By piloting the exam, the BOP and OPM are able
          to test and then modity the exam to ensure validity betore full
          implementation . The pilot began the week of September 12, 2011, in
          Pollock and will end in Victorville and Florence the week ot
          September 26, 2011. This exam, once validated and completed in tina1
          torm, wil l be given to all applicants and used to screen out
          applicants who do not adhere to the va l ue system adopted by the BOP.
          The exam will measure qualities such as integrity, respect, and
          correctional excellence . We believe it is financially prudent to
          continue to pursue this effort and measure the outcomes before
          extending further l imited resources to devel op another composite
          scoring mechanism. We anticipate the current pilot of the exam to
          be completed by September 30, 2011, in order to effectuate any fina l
          modifications to the exam before fully utilizing it at all
          institutions tor pre-employment screening in 2012. We request this
          recommendation be closed .

          If you have any questions regarding this response, please contact
          H. J. Marberry, Assistant Director, Program Review Division, at
          {202} 353 - 2302 .




U.S. Department of Justice                                                         69
Office of the Inspector General
Evaluation and Inspections Division
       APPENDIX VII: OIG ANALYSIS OF THE BOP’S RESPONSE 



       The Office of the Inspector General provided a draft of this report to
the BOP for its comment. The BOP’s response is included in Appendix VI
to this report. The OIG’s analysis of the BOP’s response and the actions
necessary to close the recommendation are discussed below.

Recommendation. Consider developing a composite scoring
mechanism for assessing the suitability of Correctional Officer
applicants.

       Status. Resolved – open.

      Summary of the BOP Response. The BOP concurred with the
OIG’s recommendation. The BOP stated it is currently piloting a “Core
Value Assessment Exam” on applicants at three BOP prisons with the
assistance of OPM. The BOP believes it is financially prudent to measure
the outcome of this pilot program before embarking on development of
additional pre-employment hiring programs. The BOP anticipates
completion of the pilot program by September 30, 2011, and utilization of
the exam at all BOP prisons by 2012.

       OIG Analysis. The actions planned by the BOP are responsive to
the OIG’s recommendation. By November 30, 2011, please provide a
detailed description of the pilot program, elements of the exam relating to
composite scoring, results of the pilot program, and plans for
implementation of the exam across the BOP in 2012.




U.S. Department of Justice                                                70
Office of the Inspector General
Evaluation and Inspections Division
